<html>
<title> - [H.A.S.C. No. 112-63]THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 9/11: PERSPECTIVES FROM OUTSIDE EXPERTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 112-63]

                     THE FUTURE OF NATIONAL DEFENSE
                    AND THE U.S. MILITARY TEN YEARS
                     AFTER 9/11: PERSPECTIVES FROM
                            OUTSIDE EXPERTS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 13, 2011


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>







                                  _____

                      U.S. GOVERNMENT PRINTING OFFICE
  68-464                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c4b5c436c4f595f584449405c024f434102">[email&#160;protected]</a>  



                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                      One Hundred Twelfth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman
ROSCOE G. BARTLETT, Maryland         ADAM SMITH, Washington
MAC THORNBERRY, Texas                SILVESTRE REYES, Texas
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
W. TODD AKIN, Missouri               MIKE McINTYRE, North Carolina
J. RANDY FORBES, Virginia            ROBERT A. BRADY, Pennsylvania
JEFF MILLER, Florida                 ROBERT ANDREWS, New Jersey
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
MICHAEL TURNER, Ohio                 RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVE LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            GABRIELLE GIFFORDS, Arizona
DOUG LAMBORN, Colorado               NIKI TSONGAS, Massachusetts
ROB WITTMAN, Virginia                CHELLIE PINGREE, Maine
DUNCAN HUNTER, California            LARRY KISSELL, North Carolina
JOHN C. FLEMING, M.D., Louisiana     MARTIN HEINRICH, New Mexico
MIKE COFFMAN, Colorado               BILL OWENS, New York
TOM ROONEY, Florida                  JOHN R. GARAMENDI, California
TODD RUSSELL PLATTS, Pennsylvania    MARK S. CRITZ, Pennsylvania
SCOTT RIGELL, Virginia               TIM RYAN, Ohio
CHRIS GIBSON, New York               C.A. DUTCH RUPPERSBERGER, Maryland
VICKY HARTZLER, Missouri             HANK JOHNSON, Georgia
JOE HECK, Nevada                     BETTY SUTTON, Ohio
BOBBY SCHILLING, Illinois            COLLEEN HANABUSA, Hawaii
JON RUNYAN, New Jersey               KATHLEEN C. HOCHUL, New York
AUSTIN SCOTT, Georgia
TIM GRIFFIN, Arkansas
STEVEN PALAZZO, Mississippi
ALLEN B. WEST, Florida
MARTHA ROBY, Alabama
MO BROOKS, Alabama
TODD YOUNG, Indiana
                  Robert L. Simmons II, Staff Director
               Jenness Simler, Professional Staff Member
                Michael Casey, Professional Staff Member
                    Lauren Hauhn, Research Assistant















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2011

                                                                   Page

Hearing:

Tuesday, September 13, 2011, The Future of National Defense and 
  the U.S. Military Ten Years After 9/11: Perspectives from 
  Outside Experts................................................     1

Appendix:

Tuesday, September 13, 2011......................................    43
                              ----------                              

                      TUESDAY, SEPTEMBER 13, 2011
THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 9/
                 11: PERSPECTIVES FROM OUTSIDE EXPERTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Boot, Max, Jeane J. Kirkpatrick Senior Fellow for National 
  Security Studies, Council on Foreign Relations.................     9
Donnelly, Thomas, Resident Fellow and Director, Center for 
  Defense Studies, American Enterprise Institute.................     6
O'Hanlon, Dr. Michael E., Director of Research and Senior Fellow, 
  Brookings Institution..........................................    12
Thomas, Jim, Vice President and Director of Studies, Center for 
  Strategic and Budgetary Assessments............................     4

                                APPENDIX

Prepared Statements:

    Boot, Max....................................................    74
    Donnelly, Thomas.............................................    64
    McKeon, Hon. Howard P. ``Buck''..............................    47
    O'Hanlon, Dr. Michael E......................................    83
    Smith, Hon. Adam.............................................    49
    Thomas, Jim..................................................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Andrews..................................................    97
    Mr. Bartlett.................................................    97

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

 
THE FUTURE OF NATIONAL DEFENSE AND THE U.S. MILITARY TEN YEARS AFTER 
         9/11: PERSPECTIVES FROM OUTSIDE EXPERTS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Tuesday, September 13, 2011.
    The committee met, pursuant to call, at 10:00 a.m. in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Good morning. The committee will come to 
order. I know some are caught in traffic, but we will go ahead 
and get started, and I think we will be fine.
    The House Armed Services Committee meets this morning to 
receive testimony on ``The Future of National Defense and the 
U.S. Military 10 Years After 9/11: Perspectives from Outside 
Experts.''
    As our Nation marked the 10-year anniversary of the attacks 
on our Nation this past Sunday, we remember and commemorate the 
lives lost on that day. We also honor the sacrifices made every 
day since then by our military and their families as our Armed 
Forces continue to fight for our Nation's safety.
    This hearing is the second in our series of hearings to 
evaluate lessons learned since 9/11 and to apply those lessons 
to decisions we will soon be making about the future of our 
force. Last Thursday, we heard from former chairmen and a vice 
chairman of the Joint Chiefs of Staff. Today, we will hear from 
outside experts representing several well-known and highly 
respected organizations to whom our committee regularly turns 
for accurate and reliable research and analysis. While we will 
continue to solicit the expertise of former and current senior 
military and civilian leaders within the Department of Defense, 
it is important to gain perspective from professionals such as 
these who make their living conducting the type of forward-
looking strategic assessments that we seek.
    I remain concerned that our Nation is slipping back into 
the false confidence of a September 10th mindset--believing our 
Nation to be secure because the homeland has not been 
successfully attacked; believing that we can maintain a solid 
defense that is driven by budget choices, not strategic ones.
    As members of the Armed Services Committee, we must avoid 
the cart-before-the-horse cliche. First, we must decide what we 
want our military to do, and only then evaluate savings within 
the Department. To date, that hasn't happened. Over half a 
trillion dollars has been cut from the DOD [Department of 
Defense] already. Nevertheless, if the Joint Select Committee 
does not succeed in developing and passing a cohesive deficit 
reduction plan, an additional half a trillion dollars could be 
cut from our military automatically. On top of that looming 
concern, it remains to be seen whether or not additional cuts 
may be proposed by the Administration even if the super 
committee is successful.
    As chairman of the Armed Services Committee, I have two 
principal concerns that stem from recent military atrophy. The 
first is a security issue. In a networked and globalized world, 
the Atlantic and Pacific Ocean are no longer adequate to keep 
America safe. September 11th taught us that.
    The second is an economic concern. While it is true that 
our military power is derived from our economic power, we must 
realize that this relationship is symbiotic. Cuts to our 
Nation's defense, either by eliminating programs or laying off 
soldiers, comes with an economic cost. The U.S. military is the 
modern era's greatest champion of life, liberty, and the 
pursuit of happiness. It is time we focus our fiscal restraint 
on the driver of our debt instead of the protector of our 
prosperity.
    With that in mind, I look forward to a frank discussion 
today.
    Representative Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 47.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And I want to thank the chairman for holding not just this 
hearing but this series of hearings. I think it is one of the 
most important challenges that we face on the Armed Services 
Committee and certainly in our national security Department of 
Defense strategy, to figure out how we deal with the budget 
deficit we face pending cuts. But, also, I think our experts 
agree today, and everyone on the panel would agree, that even 
if we weren't facing these budget cuts and deficit challenges, 
there is a need to review the strategy at DOD.
    A lot has changed in recent years. We are beginning to draw 
down in Iraq and Afghanistan. We have the emergence of all 
kinds of new weapons systems, potential challenges. Certainly, 
a lot has changed since we had the fairly dependable Cold War 
strategy of being able to fight two major regional 
contingencies at the same time. So, no matter our budget 
picture, it would be appropriate to have a strategic review.
    And it is important to point out that the executive branch, 
the President, is going through that strategic review right 
now, going back, looking at where we spend our money in the 
Department of Defense and saying, Where can we find savings? 
Where should we spend it? What should our strategy be? I think 
that is one of the most important things that we are going to 
have to do on this committee, so I think it is great to hear 
from outside experts and, frankly, from any experts that we can 
get our hands on. It is going to be necessary.
    And it is important to point out that the size of some of 
the cuts that have been talked about on the Department of 
Defense budget would be devastating. I did not support the debt 
ceiling deal, despite the fact that I felt we should raise the 
debt ceiling, in large part because all of the cuts were dumped 
on to the nonentitlement portion of the spending, unless, of 
course, the super committee manages to do what we have been 
completely unable to do for the last 10 or 12 years and comes 
up with savings elsewhere. So it is all dumped onto the 
nonentitlement portion of the budget, and defense is over half 
of that nonentitlement spending. National security spending 
will be devastated if this plan goes forward, and we seriously 
need to come up with some alternatives to that.
    That said, we can clearly find savings in our national 
security spending; we can clearly find savings in the 
Department of Defense. Anybody who takes a passing look at the 
last 10 years can clearly find places where we need to spend 
money better, more effectively. And we could actually save 
money and be stronger. You know, it doesn't necessarily have to 
work in the opposite direction.
    And the other point I would like to make is, resources are 
part of a strategy. I am sure absolutely everybody who has ever 
had to look at something where they want to spend money would 
like to say, let's imagine that money is not a factor. What do 
we want? I mean, that is the standard operating procedure for 
any program you can imagine. It is also completely unrealistic. 
You have to live within the resources that are available to 
you, and you have to figure out what your strategy should be.
    But the one thing that I absolutely believe is whatever we 
decide in terms of our strategy, we have to make sure we fund 
it. The one thing this committee, this Congress, the President, 
the Department of Defense cannot do is come up with a strategy 
and ask the men and women in our Armed Forces to carry it out 
and then not give them the resources to carry it out. So my 
personal opinion is you've got to look at the resources in 
determining that strategy. Don't set a strategy imagining more 
resources than you are actually going to have.
    And the last point that I think is critical: We have to 
make choices here. And this committee can do a great job, and 
has done a great job, of pointing out where, if you cut this, 
here is the implication. I think it is very important that we 
do that, that we make it clear the impact that these cuts will 
have on our ability to protect this Nation. We need to make 
that argument.
    But if we feel very, very strongly that those proposed cuts 
are going to do irreparable harm to our national security 
strategy, that they should not be made, then we also have an 
obligation to come up with the money so that we don't make 
them. And whether that is finding cuts in other programs or 
finding more revenue, that is a critical piece of this.
    And, again, everybody who is looking to spend money would 
like to say, ``Well, this is my little piece. I can't worry 
about where it is coming from; that is your job. I just got to 
tell you that I have to have this.'' Well, if you have that 
focus, you are going to look up and not have that money if you 
are in the nonentitlement portion of the budget, because the 
revenue is the revenue, the entitlements are the entitlements, 
they are what they are. It takes an act of Congress every year 
and the President to sign it to fund the Department of Defense.
    So if you don't deal with those other issues, as I have 
said repeatedly, you wind up being the person last in line at a 
buffet where the food is running out. Not a good situation. So 
we have to talk also about what our revenue should be and what 
other programs we should cut.
    I look forward to this discussion. I think it is the most 
important thing we are doing right now because it will form our 
national security policy in the years and decades to follow.
    I thank the chairman for having this hearing and look 
forward to the witnesses' testimony.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 49.]
    The Chairman. Thank you very much.
    Now, as I mentioned before, we have special witnesses that 
have outside expertise, and I am looking forward to hearing 
their testimonies.
    First we will hear from Mr. Jim Thomas, Vice President and 
Director of studies at the Center for Strategic and Budgetary 
Assessments.
    Dr. O'Hanlon is still caught in traffic. We will move him 
to the end.
    We will hear next from Mr. Thomas Donnelly, Resident Fellow 
and Director, Center for Defense Studies at the American 
Enterprise Institute; and Mr. Max Boot, the Jeane Kirkpatrick 
Senior Fellow for national security studies at the Council on 
Foreign Relations; and then Dr. Michael O'Hanlon, Director of 
research and Senior Fellow at the Brookings Institution.
    Thank you, gentlemen, for being here today. We all look 
forward to hearing your testimony.
    Mr. Thomas.

    STATEMENT OF JIM THOMAS, VICE PRESIDENT AND DIRECTOR OF 
    STUDIES, CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Thomas. Chairman McKeon, Ranking Member Smith, and 
members of the committee, thank you for inviting me to testify 
today.
    And, Mr. Chairman, Ranking Member, I just want to 
underscore the importance of your opening comments this 
morning, that truly our national and economic security are 
intertwined, and it is not a question of one or the other but 
it is a question of how we are going to manage both in the 
years ahead. And the second that I think you both stressed was 
that the cuts that would be anticipated by the sequestration 
trigger truly would be devastating. And this, obviously, is in 
the backs of all of our minds this morning.
    Ten years on from the 9/11 attacks, America finds its 
military forces still engaged in Iraq, Afghanistan, and 
conducting combat and noncombat operations around the world. 
But the United States does not have the luxury to focus only on 
the threat posed by Islamic extremists. Three challenges, in 
particular, will require greater attention over the next 
several decades: The rise of China, new regional nuclear 
powers, and the growing lethality and empowerment of other 
transnational non-state actors besides Al Qaeda.
    The security challenges we face in the decade ahead are 
greater than they have been at any time since the Cold War, 
while the resources to deal with them are tightening by the 
day. There is a need to revise our defense strategy in light of 
our changing security and fiscal circumstances. We have to make 
choices. Even if we didn't face a grim fiscal outlook, we would 
still need to make choices to address the range of security 
challenges this Nation faces to maintain U.S. military staying 
power.
    A new strategy might call on allies and partners to do more 
for their own defense, with the United States serving as a 
global enabler rather than a first responder for every regional 
crisis that comes along. It might place greater emphasis on 
particular elements of the U.S. military to foster deterrence. 
Just as President Eisenhower's ``New Look'' strategy in the 
1950s emphasized nuclear weapons to deter aggression, the 
United States today might emphasize Special Operations Forces 
and global strike capabilities, including cyber capabilities, 
conventional and nuclear, to deter aggression and coercion.
    The United States, and DOD in particular, should also 
consider revising the force planning construct that directs how 
we size and shape our military forces, moving away from the 
preparations for conducting concurrent large-scale land combat 
campaigns focused specifically on conducting or repelling 
invasions. Instead, it might consider a wider range of 
contingencies, placing a particular emphasis on one of the most 
stressing challenges our military faces, which might be the 
elimination of a hostile power's WMD [weapon of mass 
destruction] capabilities.
    As we look ahead, we should assume that the United States 
will conduct no more than one large-scale land combat campaign 
at any given time. To deal with opportunistic aggression by a 
third party if the United States is engaged in war--the threat 
that the concurrency principle in our force planning construct 
historically has intended to address--the United States should 
maintain sufficient global strike capabilities, including a 
deep magazine of precision-guided weapons, to halt invading 
forces and conduct heavy punitive attacks over extended periods 
of time against any second mover.
    The United States should also consider revising its 
military roles and missions. It should reduce duplication 
across the Services, including in combat aircraft, unmanned air 
vehicles, armored forces, and cyber capabilities.
    Beyond changes in its strategy and the design of forces, we 
should also look for greater savings and efficiencies in the 
institutional functions of the Department, including reductions 
in headquarters staffs. We must also act to arrest personnel 
growth, cost growth, lest DOD follow the path of large American 
corporations that have run into trouble in recent years as 
their health care and pension costs have spiraled out of 
control, leaving them less competitive.
    We must also safeguard key elements of our defense 
industrial base as a source of strategic advantage. And today, 
the Center for Strategic and Budgetary Assessments is releasing 
in advance to members of this committee copies of our new 
report on the defense industrial base.
    And, finally, the Department of Defense should develop new 
operational concepts, which serve a vital function as the 
connective tissue between our strategic objectives and the 
types of forces and capability investments that will be needed 
in the future.
    In closing, let me say that I believe, despite the 
conventional wisdom that America is in decline, the United 
States continues to enjoy unrivaled strategic advantages and 
the most favorable position relative to all the other great 
powers of the day. With ample political will and shared 
sacrifice, I am confident the United States can get its 
economic house back in order while continuing to safeguard the 
country from those who would harm us.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Thomas can be found in the 
Appendix on page 51.]
    The Chairman. Thank you.
    Mr. Donnelly.

  STATEMENT OF THOMAS DONNELLY, RESIDENT FELLOW AND DIRECTOR, 
   CENTER FOR DEFENSE STUDIES, AMERICAN ENTERPRISE INSTITUTE

    Mr. Donnelly. Thanks to you, Mr. Chairman, to the ranking 
member, and the committee. I only lament that this hearing 
isn't being conducted in front of the ``super committee'' 
[Joint Select Committee on Deficit Reduction] itself, the folks 
who really have the fate of the U.S. Armed Forces in their 
hands. So I hope you will make this result available to them 
and urge them to confront the issue directly themselves.
    I understand we are a last minute substitute for the former 
Secretaries of Defense. That gives me an opportunity to frame 
what I want to talk about and what I talk about in my written 
testimony. So I am going to try to channel what I imagine 
Secretary Perry, William Perry, might have said. I had the good 
fortune to help him out, and the other members of the 
Quadrennial Defense Review Independent Panel, very much a 
creation of this committee.
    So what I would like to do is try to address the strategic 
issues that you and the ranking member have raised and use the 
construct that we came up with in the panel as a way to think 
about what the consequences of these cuts, the ones that are 
already in prospect, and the ones that, as Jim suggested, 
sequestration or a similar negotiated outcome would produce out 
of the super committee.
    The Chairman. Without objection, your written testimonies 
will be included in the record. Thank you.
    Mr. Donnelly. Thank you, Mr. Chairman.
    And there were four--I mean, in the panel, we very quickly 
came to a dead end once the members realized that the strategy 
enunciated in the QDR [Quadrennial Defense Review] itself was 
really an empty vessel, not really a guide to planning for the 
Department. And that was an observation that applied not only 
to the 2010 QDR but increasingly to the QDR process since it 
had been initiated.
    The result was that members really kind of had to go back 
or thrust back on their own resources and their own experience. 
Fortunately, the 20 members were among the most intelligent and 
experienced public servants and former military officers that 
had ever served this country. And what we decided to do was, 
essentially, to deduce from the behavior of the United States, 
from what we have actually done in the world since the end of 
World War II, what our de facto strategy is.
    And the members of the panel very much came to the 
conclusion that we are not beginning with a blank sheet of 
paper, that there is no giant risk meter in the sky where we 
can perfectly calibrate the dangers and threats that Americans 
and American interests face in the world. And the best way to 
think about what we need to prepare for is to ask what outcome, 
what result, the United States would like to see, what kind of 
world would we like to live in? And we very quickly came to 
these four conclusions.
    The number one priority for American strategy has been, 
remains, and, certainly, 10 years after 9/11, we are reminded 
that defense of the American homeland is the number one 
priority. We have made a lot of investments and been very lucky 
and people have worked extraordinarily hard to ensure that 
those 9/11 attacks were not repeated. Certainly all of us who 
work in Washington, one of the questions we asked ourselves on 
9/11, even before the day was out, was, when is the next attack 
going to be? That is a normal response, and the fact that we 
have avoided that is a result of good luck but a lot of effort 
and a lot of effort on the part of the Department of Defense. 
It is obviously a multiagency task, but DOD has contributed a 
lot to the fact that we believe ourselves to be safer today.
    The second enduring premise of American strategy is access 
to what is normally called ``the commons,'' the international 
commons. That is a term that was derived mostly in regard to 
naval and maritime power. That remains true in a world, a 
globalized world that depends on international trade. Not only 
the United States but the rest of the world and the most 
rapidly modernizing parts of the world depend upon the ability 
to ship goods easily, freely, and cheaply. But, obviously, the 
oceans and the seas are an incredible and essential part of 
American power projection around the world, of our posture 
across the world and, in fact, our entire global position.
    The atmosphere, the air, the skies, is also, like the seas 
in being both an avenue for commerce but an essential component 
of American military power. Indeed, American airpower has been 
the signature form of American military power now really since 
the end of World War II. And even our naval forces are largely 
defined by their ability to employ airpower, to be mobile 
platforms for strike aircraft or strike systems.
    But what is true on the seas and in the skies is also true 
in space, near-Earth space, and also in cyberspace now. And 
particularly when you come to cyberspace, we are spending a lot 
of money trying to figure out what cybersecurity really entails 
and means, and it is still a process of discovery.
    But it is also the case, reasoning backwards, that the 
failure to provide a secure environment for international 
commerce, which is more and more conducted across the Internet, 
and international communications and all the elements of modern 
life that the Internet is intertwined with, if that is not a 
safe and secure realm for commerce and for military affairs, 
then there will be geopolitical implications.
    Imagine what a genuinely insecure or contested cyber realm 
would look like and what international politics would be like. 
People would, of course, turn first to the United States to 
say, Where is the answer? Why isn't it safe for us to conduct 
our business? But then, if we were unable to provide such 
guarantees, again, I can't imagine in detail. I would defer to 
experts in this field. But it is certainly something worth 
thinking about and asking ourselves, as we prepare to cut and 
as the newest investments may well be the first ones to fall 
off the plate, what the consequences of that would be.
    Two other elements of our strategy are long-enduring, and I 
think, as we look forward, we have to ask ourselves, are we 
going to continue to conduct our business in this way or shape 
our strategy?
    The first is the balance of power across the Eurasian 
landmass, not to be too pedantic about it: In Europe, in the 
greater Middle East, and in East Asia. We have been in Europe 
for almost a century. The creation of a stable and peaceful 
Europe, which is a punctuation mark on 400 years of struggle 
and conflict, is the result of the American victory in World 
War II and in the Cold War. It is a human historic achievement.
    It costs us pennies compared to what it used to. The idea 
that we could somehow reap savings by withdrawing our garrisons 
in Europe I think is just, actuarially or as an accounting 
matter, not the case. But it is also the case that these 
positions are really useful lily pads for the projection of 
power elsewhere. There is not an operation we have conducted in 
the Middle East over the past two decades that hasn't relied on 
either stopping for gas or, for example, returning casualties 
quickly to very high-end medical facilities in Germany.
    If we walk away from those commitments, it is not likely to 
immediately put the peace of Europe at risk, but it is 
certainly going to make our job more difficult elsewhere. We 
could not have conducted the operation in Libya, even as 
compromised as it was, absent access to European facilities and 
without our European allies.
    The same is true even more so in East Asia. Jim referred in 
his testimony to the challenges that we face in that region. We 
have been withdrawing from East Asia for the last generation, 
particularly in Southeast Asia. And, not surprisingly, that is 
the region where the Chinese have become more provocative and 
more aggressive in recent years.
    And, finally, in the Middle East, we are all weary of the 
wars in Afghanistan and Iraq, and for good reasons, although 
our sacrifices at home are nothing compared to the sacrifices 
of those who are actually fighting the war, who are a very 
small proportion of our population. But, again, if we step back 
from the headlines and look at the experience of the past 30 
years, if I had been an investor in a penny stock called U.S. 
Central Command in 1979, I could have retired many times over, 
because the number of Americans in all Services and all 
capacities who are serving in that region has mushroomed, and 
we have been remarkably successful--again, if you step back 
from the attacks of the day--in terms of creating a region that 
is more peaceful, more stable, and now, surprise, in the throes 
of its own democratic revolution.
    And, finally, there is the component of American strategy 
that should not be undersold, and that is providing for the 
public good, the international common public good, whether it 
is humanitarian relief, even up to the more directly related to 
our national interest tasks of nation- and state-building, and 
army-building in particular, in states that are new allies of 
ours and who we wish to be our strategic partners for the 
future.
    Again, I am simply trying to observe how we have acted. 
Presidents of both parties, often who come into office saying, 
``I will never do that again; I will control our appetite, and 
I will lift the burden and save money on war and on military 
expenses,'' to a man, they have reversed course and found that 
the need for energetic engagement across the world remains the 
core of American strategy.
    So, as we contemplate these cuts, I think the benchmark 
ought to be what our past behavior has been. And you need to 
ask the super committee, and before we collectively as a Nation 
make these decisions, ask which of these missions we are going 
to shortchange. The people who conduct them have been running 
at full speed for quite a while. And as we take away resources 
from them, their ability to succeed is going to be put at risk 
and so will their lives.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Donnelly can be found in the 
Appendix on page 64.]
    The Chairman. Thank you.
    Mr. Boot.

 STATEMENT OF MAX BOOT, JEANE J. KIRKPATRICK SENIOR FELLOW FOR 
    NATIONAL SECURITY STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Boot. Thank you, Mr. Chairman. Thank you, Congressman 
Smith. Thank you, members of the committee. Thank you for 
convening this very important series of hearings. Thank you for 
inviting us to testify. And thank you, above all, for all you 
are doing to sound the clarion call about the devastating 
damage that will be done to our Nation's defense and to our 
standing as a country if the full range of budget cuts 
currently contemplated in Washington were actually to be 
enacted.
    Jim's colleague Todd Harrison at CSBA [Center for Strategic 
and Budgetary Assessments] has calculated that if you add in 
the cuts that have already been made and the cuts that are 
being contemplated--which, let us remember, is not only a 
devastating possibility of sequestration but also the loss of 
the overseas contingency funding as we wind down in Iraq and 
Afghanistan--if you put all that together, according to Todd 
Harrison of the Center for Strategic and Budgetary Assessments, 
the defense budget could decline by 31 percent over the next 
decade. That compares with cuts of 53 percent after the Korean 
war, 26 percent after the Vietnam war, and 34 percent after the 
end of the Cold War.
    Now, some will say, ``Good. It is a historical norm that we 
should wind down our military activities and spend the peace 
dividend when wars are over.'' In the first place, I would 
observe that it is more than curious that we are in a rush to 
spend a peace dividend when there is no peace, when our 
soldiers every day are still walking outside the wire in Iraq 
and Afghanistan, facing deadly danger, confronting our Nation's 
enemies. They are not at peace, our Nation is not at peace, and 
yet we are rushing to wind down our military activities.
    Beyond that, however, I would put on my hat as not only a 
policy analyst but, first and foremost, as a historian and look 
at what has happened in the past when we have engaged in this 
activity of cutting defense after what we believe to be the end 
of hostilities, when we suddenly imagine that peace is dawning 
and we can afford to let down our guard. If there is one iron 
law of American history, it is that those cuts have made future 
wars more likely, and when those wars have come, they have made 
it much more likely that we would lose the first battles of 
those wars, at great cost in blood and treasure to our Nation.
    Let me just review that history very briefly with you, 
noting, to begin with, that after the American Revolution our 
Armed Forces shrank from 35,000 men to just 10,000, which left 
us completely unprepared to deal with the Whiskey Rebellion, 
the quasi-war with France, the Barbary wars, the War of 1812, 
all the conflicts of the early 19th century. After the Civil 
War, our Armed Forces shrank from more than a million men to 
just 50,000, which made it impossible to deal with the threat 
posed by the Ku Klux Klan and other violent terrorist groups 
seeking to subvert the aims of Reconstruction.
    After World War I, our Armed Forces shrank from 2.9 million 
men to 250,000 in 1928. That made World War II much more likely 
by emboldening aggressors in both Japan and Germany.
    After World War II, our Armed Forces shrank from 12 million 
men in 1945 to 1.4 million in 1950. The Army saw truly steep 
cuts, from 8.3 million soldiers to 593,000. And those that were 
remained were ill-trained, ill-equipped. We paid the cost in 
1950 when North Korean tanks rumbled across the DMZ 
[Demilitarized Zone] and the very first American force to 
confront them, Task Force Smith, was decimated because they had 
neither the training nor even the ammunition to stop this 
onslaught.
    After the Korean war, our Armed Forces once again declined, 
from 3.6 million men in 1952 to 2.5 million in 1959. The Army 
lost almost half its Active Duty strength in those years. 
Instead, President Eisenhower thought he could rely on the 
``New Look,'' on nuclear deterrence, to prevent aggression in 
the future. That strategy was not vindicated in the case of 
Vietnam, where we confronted an enemy who could not be stopped 
by a handheld Davy Crockett nuclear launcher.
    After the Vietnam war, our Armed Forces shrank from 3.5 
million personnel in 1969 to 2 million in 1979. This was the 
era, as you all remember I am sure, the era of the ``hollow 
Army,'' when we had inadequate equipment, discipline, training, 
and morale, all of which emboldened our enemies to aggression, 
whether it was anti-American revolutions in Nicaragua and Iran 
or the Soviet invasion of Afghanistan. We are still paying the 
price, by the way, in that the anti-American regime in Iran 
remains very firmly entrenched in power.
    And then, after the end of the Cold War and the Persian 
Gulf war, our Armed Forces shrank from 2.1 million personnel in 
1989 to 1.3 million in 1999. We are still suffering the 
consequences of that post-Cold War drawdown, which left us with 
inadequate force numbers to deal with contingencies such as the 
wars in Iraq and Afghanistan. As we know, our Armed Forces have 
been tremendously stressed over the last decade. And it is not 
only the Army; it is the Navy, it is the Air Force, all of 
which are running their equipment ragged, running their 
personnel ragged by maintaining an unsupportable operations 
tempo.
    This is the point when we should be recapitalizing our 
Force, as called for by the Hadley-Perry Commission. This is 
when we should be building up to make up for the decline in 
overall American--for the lost procurement decade of the 1990s, 
for the declining stocks of weapons systems and the aging of 
our tanks, aircraft, Navy ships, and others.
    It is certainly a time when, as has been pointed out by Tom 
just a minute ago, we are facing numerous threats around the 
world, which would certainly necessitate, if we were looking at 
things from a strategic perspective, a buildup, not a drawdown. 
When you look, certainly, at the fact that China is undergoing 
double-digit increases in its defense spending every year, that 
suggests the need for enhancing the American deterrent in the 
Pacific, not drawing it down.
    And yet, what are we already engaging in? We are already 
seeing the Department of Defense cut back program after 
program, whether it is the F-22 or the Future Combat System, 
the Expeditionary Fighting Vehicle--so many, over the last 
several years, which have been canceled or cut back. So it is 
not as if the Department of Defense has been exempt from the 
budget-cutting ax. We are already cutting into what I believe 
to be the muscle of our military defense. The danger now, of 
course, is that, if sequestration occurs, we will start 
chopping off entire limbs. Either way, our Nation's defense 
will not remain whole if this budget-cutting imperative is 
allowed to run willy-nilly out of control.
    Now, in conclusion, I would note that, all that being said, 
if it were truly the case that the defense spending that we 
currently have were bankrupting the country, if the defense 
spending were truly responsible for the grievous state of our 
public finances, at that point I might very well join the 
budget cutters and say we should cut back, because, in fact, 
our Nation's economic wellbeing is the ultimate line of defense 
and the ultimate guarantor of American strength.
    But, as all of you know, that is not the case. Even now, 
even with defense spending having doubled in absolute terms 
over the last decade, we are still spending less than 5 percent 
of our gross domestic product on defense. It is still consuming 
less than 20 percent of the Federal budget. These are both 
relatively low figures by historic standards, and it is 
impossible to argue with a straight face that defense is 
bankrupting our country. Clearly, as Congressman Smith 
mentioned, it is the entitlement problem that we have to 
grapple with. And even if we eliminated the defense budget 
tomorrow, we would still be left with a dire fiscal situation.
    But instead of dealing with our true fiscal woes, I fear we 
are being distracted by them, again, as Congresswoman Smith 
noted, by the fact that it is relatively easy to go after 
defense and much harder to go after entitlements. And what this 
raises for me is the prospect of a dangerous world that I hope 
that I will not live to see, that I hope that none of us will 
live to see, which is a world in which America is no longer 
number one, a world in which our primacy is actively 
challenged, a world of competing power blocks, a Hobbesian 
world where the rule of law becomes a laughingstock, where our 
power is not respected.
    That will be a much dangerous world. And if history is any 
guide, we will pay a very high praise if we allow the waning of 
our military power and we live to see a world such as that. And 
yet I fear that will be the inevitable consequence if 
sequestration occurs, and perhaps even if not.
    Thank you.
    [The prepared statement of Mr. Boot can be found in the 
Appendix on page 74.]
    The Chairman. Thank you.
    Dr. O'Hanlon, I already introduced you as Director of 
Research, Senior Fellow at the Brookings Institution. Sorry you 
were held up in traffic. We will now hear from you.

STATEMENT OF DR. MICHAEL E. O'HANLON, DIRECTOR OF RESEARCH AND 
              SENIOR FELLOW, BROOKINGS INSTITUTION

    Dr. O'Hanlon. Thank you, Mr. Chairman. I apologize, and I 
will be brief. I was with a group of Army generals talking 
about a similar topic out in Fairfax, and that is a long ways 
with D.C. traffic. But my apologies and my appreciation for the 
opportunity.
    I will just make a couple of brief points. I know some of 
what has already been said, having reviewed some of their 
writings.
    I think there are ways to do $350 billion to $400 billion 
or so in 10-year defense cuts but not trillion-dollar cuts. And 
that is the bottom line for me.
    And I say this based on an ongoing research project that I 
have been conducting where I try to begin with five or six what 
I consider irreducible requirements for American national 
security policy. And I think, for example, just to give you a 
highlight, we don't want to be in a position where we have to 
choose between protecting the western Pacific as China rises in 
a promising but challenging way and protecting the Persian 
Gulf. We don't want to ask the Navy to make that choice. I 
think it would be fundamentally unwise. We don't want to ask 
the Army to choose between a potential capability to protect 
Korea, because as unlikely as war may be there it is not 
impossible, and being able to conduct its ongoing stability 
efforts in the broader Middle Eastern region. We don't want to 
have to ask the defense industrial base to make a choice 
between keeping top-of-the-line excellence in certain 
technology areas like stealth, but not maintaining that 
excellence in other areas like submarines. And yet these are 
the kinds of choices I believe we are forced into if we make 
trillion-dollar, 10-year cuts.
    If we make half-trillion-dollar, 10-year cuts, it is still 
hard, it is still uncomfortable, but just to give you a quick 
sampling of the kinds of ideas that I think we can consider and 
that are difficult and risky but still, I think, worth looking 
into at this kind of a moment in our Nation's fiscal peril, I 
think we can consider a range of ideas that still allow us to 
maintain these core requirements but that, frankly, are going 
to be tough. For example, consider a ``nuclear dyad'' instead 
of a triad. I am open to that.
    Another idea that I think we should be open to, recognizing 
that unmanned drones now allow us to cut back the F-35 
procurement buy from 2,500 to perhaps something that is only 
half to two-thirds as much, using drones and precision strike 
munitions instead of the number of manned tactical fighters 
that we previously anticipated.
    Another example of where I think we can be a little bit 
provocative--and we should be--is to ask the Navy to start 
considering rotating crews overseas by airplane and leaving the 
ships forward-deployed for a longer period of time. The Navy 
has done this with mine sweepers, and it has a variant on this 
for its ballistic missile submarines, but it does not do it 
with its surface combatants, even though I believe it could and 
even though they have done experiments that show that it is 
doable. Now, you still have to have a ship back home for 
training, but when you go through the math, you can actually 
get 35, 40 percent more utility per ship, at least in 
peacetime. This doesn't account for the need for a warfighting 
attrition reserve, but in peacetime you can probably do better.
    That is the kind of uncomfortable idea I think the Navy has 
to consider. And I think the Army and Marine Corps are going to 
have to go back to Clinton-era, 1990s-era levels in terms of 
size and overall manpower strength as the war winds down in 
Afghanistan. So I am open to these sorts of things.
    But even if you do these--and these are pretty aggressive, 
and they are going to make a lot of people uncomfortable and 
add some risk to our national security portfolio--I think you 
can get to $350 billion, $400 billion in 10-year cuts; you 
can't get anywhere close to a trillion. And if you go for a 
trillion, you are playing Russian roulette: Which interests do 
I take a risk on? Which capabilities do I forgo?
    And I will leave it at that, Mr. Chairman.
    [The prepared statement of Dr. O'Hanlon can be found in the 
Appendix on page 83.]
    The Chairman. Thank you very much.
    And I am glad you brought that up. In the Deficit Reduction 
Act, we have $350 billion, and that is what everybody is 
focused on. But it is actually, if you look at the numbers, if 
you go back to the Secretary when he went to the chiefs and 
asked them to cut $100 billion, find efficiencies and you will 
be able to keep that for more important things, when he went 
back to them, he said, ``Actually, you will get to keep $74 
billion, and the $26 billion will be used for must-pay things 
you will have to continue with, so you won't keep the whole 
$100 billion.''
    And then when he presented that to us, he said, ``And when 
we were going through that, we found another $78 billion in 
cuts that we will institute at this point,'' which went against 
everything he had been saying for the last several years, that 
we needed to have a 1 percent increase going forward just to 
maintain stability. And with the $78 billion, it reduced end 
strength by 47,000 in the year 2015 out of the Army and the 
Marines, but he said we could go no further than that without 
significant cuts in end strength.
    Then the President gave a speech and said we want to cut 
another $400 billion out of defense. All of this has happened 
in the last year.
    And so the Joint Chiefs--I met with Admiral Mullen last 
week--are working on $465 billion in cuts that have not been 
put into place yet, not the $350 billion that we are looking 
at. And if the joint committee is not successful in their 
operation, then we are looking at another half-trillion 
dollars, which brings us up to the trillion that you just said 
is devastating.
    I thank you, each of you, for your comments and for giving 
us some ideas of things. I think all of us here understand that 
we had to make cuts, but I want to make sure that we understand 
that we are looking at $465 billion in cuts in the last year 
going forward for the next 10 years, which the chiefs have not 
yet given us what that really means. All we are looking at this 
point are numbers on a chalkboard. When we see how that 
translates down to program reduction, end strength reduction, 
we are going to have to deal with that.
    But that has already passed, and we are already grappling 
with that, without getting any further into these cuts. You 
have provided us a lot of thought-provoking material, and I am 
sure that these are things that we will have to look at as we 
go forward.
    Could you please, each of you, comment on the likelihood 
that the United States would be able to reduce our military's 
commitments? In other words, all of these cuts have been thrown 
at us without any change in strategy. It has been, just pick a 
number. I think we are going to have to look at what the 
commitment is, what do we expect our military to do.
    In light of the expected roles and missions of the 
military, please provide an assessment of the additional risk 
we assume in fulfilling these missions with a substantially 
reduced force, reductions to operation and maintenance budgets, 
and cuts to procurement.
    Mr. Thomas.
    Mr. Thomas. Well, I think, as we look ahead, for as bad as 
our fiscal predicament may be, the predicaments that face many 
of our allies are perhaps as bad or even worse.
    I think it would be perilous if the United States were to 
reduce its security commitments around the world. We have 
maintained close ties with allies in Europe and in Northeast 
Asia for decades, and this really has been a source of peace 
across, as Tom was saying earlier, the Eurasian landmass. And 
that is not something we would want to walk away from.
    The real question is going to be how we reshape our 
commitments as we look ahead. How do we change the division of 
labor and the bargains that we struck in the post-war world, 
after World War II, and renovate and update them, bring them up 
to speed for the 21st century?
    For the longest time, our allies have been more or less 
protectorates of the United States. We have extended our 
nuclear umbrella and the cloak and shield of our conventional 
capabilities to protect those allies so that they could 
flourish as industrialized nations and prosper in 
reconstructing after World War II. But as we look ahead, we are 
going to have to re-craft those bargains and expect more of our 
allies, especially in terms of their own defense.
    And here, I think, we can actually learn from some of the 
moves that some of our competitors have been making. If you 
look at what China has been doing over the past 15 years in 
terms of building up a robust anti-access/area-denial battle 
network that is really focused on preventing and constraining 
the power-projection options of others, it is possible that our 
allies could emulate China to some extent, especially in the 
Indo-Pacific region, where they can build up their own 
capabilities to hold at bay those who would do harm to them. 
They can better defend their own sovereignty more effectively 
than relying on the United States to project power into the 
theater to protect their sovereignty for them.
    So I think this is one of the things that we will have to 
look at in the years ahead.
    Dr. O'Hanlon. Just to make one specific point, Mr. 
Chairman--and this is both an indication of where I think we 
can take a little more risk but where we also have to be 
careful not to go too far.
    As this committee well knows, for 20 years we have been 
thinking about two major regional conflicts at a time as our 
planning metric. And, in fact, for the last 10 years, we have 
been fighting two at a time as our reality. That raises the 
question of, what should the planning framework be for the 
future? And, as you know, the 2010 QDR essentially reaffirms 
the two as the number, and then it adds on other missions. In 
the old days, other missions used to be thought of as lesser-
included cases, to some extent, which was probably a misnomer.
    But I think, at this point, we don't necessarily need to 
have the capability for two all out, simultaneous wars. And 
that, by itself, is a pretty risky proposition, to go from two 
to one. But I think we can consider that, with Saddam gone and 
with our other threats, our fiscal and debt threats.
    But if you are going to go to one, you don't cut the Force 
in half. You have to be able to sustain ongoing stabilization 
efforts in places, in the broader Middle East in particular, 
that may remain dangerous for quite some time. I am not 
suggesting another big regime-change operation, but if we even 
wind up putting one or two brigades in a future Yemen 
contingency or, Heaven forbid, Libya or Syria--who knows where 
these things are headed? Or Afghanistan for a longer period of 
time than some of us would now like, and you add those things 
to a one-war capability, you still wind up with a need for 
probably 450,000 Active Duty soldiers and 160,000 Active Duty 
marines.
    So even if you are prepared to be somewhat radical like 
that and go from two to one as your major regional war planning 
metric, it doesn't mean that you can do a trillion dollars in 
10-year cuts or that you can slash the Force. If you are trying 
to be at all prudent, it means something much more modest than 
that.
    Mr. Donnelly. It is always worse as far as, you go down the 
line, there are more comments you want to make. I will try to 
limit mine to three quickies.
    First of all, a matter of some facts. We have left the two-
war force-planning construct two QDRs ago. The late Bush QDR 
had that one-four-two-one, whatever that added up to, but it 
was a one-major-war planning construct. And the 2010 QDR had no 
force-planning construct whatsoever. Secretary Gates said as 
much. And all the service chiefs complained loudly and long 
about that fact because they had no yardstick to measure their 
programs against.
    The other thing I would emphasize--actually, two things--is 
that it is better for us to think of our global strategy as in 
a holistic way, not as a pile, an aggregated pile, of 
commitments that we have picked up. It really is a system. The 
balance of power in the Middle East is critically important to 
the direction that East Asia will take because East Asia 
depends critically on those natural resources, and particularly 
energy resources, that come out of the Persian Gulf and the 
region around there. And the world is just--a globalized world 
is a globalized world.
    Finally, Jim's point about changing the nature of our 
alliances is worth exploring in detail, particularly 
emphasizing new partners and new allies, the ones that we have 
won in Iraq and Afghanistan--it would be, I think, a strategic 
myopia to turn our backs on those people--but also trying to 
enlist new partners like the Indians or revitalizing our East 
Asian alliances, where there has been broad peace and stability 
that has allowed prosperity for the last generation but which 
is now much more strategically up in the air than it has been 
at any time.
    And what that means for us and our programs is that we need 
to be able to really integrate this idea of building 
partnership capacity from the start. We should never, or only 
under extreme circumstances, build systems in the future that 
we can't share with our partners and our allies. And a program 
like F-35, for example, that was structured for exactly that 
purpose, is now one of the strongest reasons for maintaining 
and recouping that investment is to be able to proliferate it 
among these new partnerships and alliances that we are trying 
to revitalize.
    Mr. Boot. Well, Mr. Chairman, I think you raise a very 
important issue about what is the American strategy going 
forward. And what concerns me and I am sure concerns all of you 
is the lack of strategic thinking going along with the budget-
cutting process. I see very little desire on the part of the 
Administration or the American people in general to give up any 
of the major roles that our Armed Forces perform around the 
world. Instead, we are constantly having new missions thrown 
their way--for example, deposing Qadhafi in Libya, just to name 
one of many, or providing disaster relief after a tsunami in 
Japan. It is hard to imagine that we would forgo those kinds of 
missions in the future.
    Instead, I think the far more likely scenario would be that 
we would still be trying to undertake pretty much all of the 
missions that we are currently doing but we would just be doing 
them on a shoestring. We would be hollowing out the Force in 
order to keep this aura of American power but losing the 
reality of American power underneath.
    You know, some of the ideas which are actually presented 
for dramatically redefining the American posture around the 
world I don't think stand up to much scrutiny. I mean, for 
example, I know just going out and talking to various audiences 
about budget cuts, you often hear questions raised about, well, 
why do we still have 80,000 personnel in Europe? I mean, what 
is the point of defending the Germans or the Italians? Why 
can't they defend themselves? But, in fact, as I think we all 
know, the primary role of those forces is not anymore defending 
the Germans or Italians; it is simply a way that we can be 
forward-deployed in the areas where our troops are most likely 
to see combat in the future.
    And the fact that we were able to shape events in Libya in 
recent months was due in no small part to the fact that we had 
those bases in Europe, that we can project power into the 
Middle East, into the Central Asia, into areas of--into the 
zones of conflict in the future. And, oh, by the way, it is not 
necessarily cheaper to bring troops home from Europe and to 
keep them at home, because the Europeans contribute to their 
maintenance in Europe in a way they would not do if they were 
based in Texas.
    So some of these ideas that might be thrown around out 
there for how we can safely contract our missions around the 
world I don't think stand up to much scrutiny. And then you get 
into the really difficult tradeoffs, the kind that Mike alluded 
to, about, are we going to keep the Persian Gulf open or are we 
going to deter China? I mean, those are truly nightmare choices 
that I couldn't imagine any administration really making and 
saying, ``Oh, we are going to give up the Middle East,'' or, 
``We are going to give up the Western Pacific.''
    Of course we are going to try to keep a hand everywhere, 
but the question is, will we have a credible capacity to back 
up those commitments? And, unfortunately, I think if, as Mike 
suggested, if we face a trillion dollars in cuts, if we face 
the loss of 30 percent of our defense budget over the next 
decade, we are not going to have the capacity to back up our 
commitments. And then they will be exposed as hollow, and our 
power will become a shadow of itself.
    The Chairman. Thank you.
    Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    In the interest of getting some other Members in here, I 
just have a couple quick comments. I am not going to ask a 
question. I think all of your comments have been very helpful 
to the panel, certainly to me. And I appreciate some of the 
insights.
    I just want to focus a little bit on the budget issue, 
because Mr. Boot pointed out defense is 20 percent of the 
budget and went through the list of arguments as to why defense 
isn't the problem. Let me tell you, everywhere in the budget, 
every little piece of it, the people who advocate for that 
piece of it have an outstanding argument for why their piece of 
it isn't the problem. But it all adds up.
    So I take a very simple, straightforward approach to this. 
It is a math problem. It is a very simple math problem. If you 
are 20 percent of a budget that is 40 percent out of whack, you 
are part of the problem, by definition. If you are 5 percent of 
a budget that is 40 percent out of whack, you are part of the 
problem.
    Certainly, the entitlements add up to 55 percent, so they 
get the largest share of it, but it depends on how you break 
those down. You know, Social Security is 12 percent, Medicare 
is 18 percent, and you can go through it. But I think what we 
have done collectively here is, you know, we defend our little 
corner of it. But the whole thing adds up to a big, huge 
problem.
    And I do appreciate Mr. Boot's phrase that it is hard to 
imagine that we would make some of the choices that you laid 
out, and it is. But the thing that everyone has got to start to 
come to grips with is, we are going to have to do a whole 
series of things that are unimaginable right now and have been 
unimaginable. That is what the numbers are in front of us. And 
instead, we spend all this time arguing about how, well, we 
can't possibly do this because it is unimaginable. We are 40 
percent out of whack. We are going to have to do something that 
is unimaginable. Now, I don't want it to be too much in the 
defense area, but it has got to be part of the conversation.
    I would correct one thing Mr. Boot said. He said that I 
stated that the problem was entitlements. That wasn't actually 
what I said. I said that it is all there. What I said was, 
right now, the only portion of the budget that is being 
targeted for cuts is the nonentitlement portion of the budget.
    And when you take 38 percent of the budget--38 percent of a 
budget that is 40 percent out of whack--and you leave the other 
62 percent out of the conversation and, I believe just as 
importantly, you leave revenue out of the conversation, revenue 
that has gone down as a percentage of GDP [gross domestic 
product] by almost 30 percent over the course of the last 
decade--and just to sort of close here with the unimaginable, 
if you take the overall position, primarily of the majority 
party, that defense cuts are going to be a big problem--and we 
have heard that, and I agree with that--raising revenue is 
completely off the table. If you do that, you have to cut 
everything else in the budget by almost 50 percent to get to 
balance.
    Now, keep in mind, a chunk of entitlements is retirement 
pay for the military, people who retire from the military.
    I don't think this committee would be too anxious about 
going after that. So once you take that off the table, you are 
over 50 percent.
    If you accept that we have to get to balance--and I think, 
again, I think the majority party and I accept that we have to 
get the balance. So when we are talking ``unimaginable'' here, 
it is all unimaginable. We have to start making people aware of 
that and then make those choices.
    Now, I agree with the assessment here; I think defense can 
take a hit. And Dr. O'Hanlon, I think, laid it out fairly well. 
Right now it is taking too big a hit, and we ought to bring 
some of these other folks on to the table. But let's not 
imagine that defense isn't part of the problem. It is 20 
percent of a budget that is 40 percent out of whack.
    With that, I will yield back and look forward to the other 
questions.
    The Chairman. Thank you.
    I would like to point out to Members that, in addition to 
Mr. Thomas' testimony, CSBA has provided us with copies of 
their new report, ``Sustaining Critical Sectors of the U.S. 
Defense Industrial Base.'' We have copies for every Member. 
But, in particular, this is a report I hope our new Panel on 
the defense industry, headed by Representative Shuster and 
Representative Larsen, will dig into.
    Thank you for providing this information to the committee.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
    The Chairman. Now we will turn to the committee for 
questions. I will be enforcing the 5-minute rule so as we can 
get all of the Members to have an opportunity to ask their 
questions.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    Our deficit is several hundred billion dollars more than 
all the money we vote to spend. Roughly every 6 hours we have 
another billion-dollar debt, and roughly every 12 hours we have 
another billion-dollar trade deficit, thanks to our moving to 
this service-based economy.
    We were asking for cuts to be equal with spending, but 
these cuts are over a 10-year period, so the cuts are one-tenth 
of the deficit. The Ryan budget, which is a very tough budget, 
doesn't balance for 25 years, during which time the debt 
essentially doubles. And it balances then only if you make what 
I think are unrealistic assumptions about economic growth, 2.6 
percent average. I think that will be very difficult. We are up 
against a ceiling of 84 million barrels of oil a day, which 
hasn't budged for 5 years now.
    So it is going to be very difficult to take defense off the 
table, and yet it is unthinkable that we would cut defense to 
the point that we are really affecting our national security.
    But we really cannot know what the sufficient support level 
is for defense until we have answered a number of questions. 
Are we going to continue to fight these discretionary wars? 
Hugely expensive, the most asymmetric wars in the history of 
the world. Some say that we are following Osama bin Laden's 
playbook, who wanted to engage us in endless, hugely asymmetric 
wars which eventually bankrupt us. At the end of the day, will 
the benefit really justify the cost of these wars?
    We still have troops in more than a hundred countries 
around the world. Do they really need to be there? After half a 
century now, we still have very large numbers of troops in 
South Korea and Germany. A number of people ask, Why are we 
there?
    We have a huge decision to make relative to R&D [research 
and development] and procurement. If we continue with all of 
our procurement items now, it will just suck all of the oxygen 
out of the budget, and R&D is really going to be cut. How much 
R&D are we really going to need to protect ourselves in the 
future?
    We really need to answer a number of questions about the 
future military environment. The deep-strike heavy bomber: Will 
our stealth capabilities really run faster than detection and 
defenses? Are we developing a bomber that is not going to be 
survivable 20, 30 years from now? Should it be manned or 
unmanned?
    Carriers versus missiles: Clearly, a missile is very 
expensive compared to one of our precision weapons, but the 
care and keeping of a carrier task force is just hugely costly. 
There is no place on Earth more than a half hour away from an 
intercontinental ballistic missile. There are a lot of places 
on Earth more than a half-hour away from our planes on our 
carriers. What will be that balance? What should we do?
    Access denial and the Expeditionary Fighting Vehicle or its 
follow-on: Will we really have the luxury of getting that close 
to shores in the future that we could use a vehicle like this? 
Should we really be developing a follow-on?
    How big should our Pentagon be? Dr. Parkinson noted that 
the smaller the British Navy got, the larger their Admiralty 
got, which is their equivalent of our Pentagon. Does it really 
need to be that big?
    We have 187 F-22s and B-2 bombers. Are they adequate to 
take out air defenses? Do we really need the F-35 and the 
numbers that we are going to be procuring at?
    How do we get an answer to these questions so that we 
really can determine the real needs of our military?
    Mr. Donnelly. I am happy to go first, if that was a 
question.
    Mr. Bartlett, you ask, you know, really a fraction of the 
questions that need to be and should be asked and answered. 
Unfortunately, the time is short. As everybody on the panel has 
observed, we have found ourselves unable to address these 
fundamental strategic and operational, budgetary, and 
programmatic questions in a durable and lasting way since the 
end of the Cold War. The idea that we don't need to have a 
force-planning construct is a recipe for further chaos.
    And, finally, we also can reason backward from just the 
experience that we have had over the past 20 years and 
particularly since 9/11. My summary analysis of that would be 
that the military that we went to war with after 9/11 was not 
particularly well-prepared for the mission it got, yet it has 
adapted and performed quite remarkably. I wish the rest of our 
Government were as adaptive and as mentally agile as people in 
uniform had been.
    And, finally, I would say----
    The Chairman. I am going to ask if you could please respond 
to that for the record. Thank you very much.
    [The information referred to can be found in the Appendix 
on page 97.]
    The Chairman. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Mr. Thomas, on page 6 of your testimony, you note that the 
defense budget, including war costs, has gone from a little 
less than $400 billion in FY [fiscal year] '01 to around $700 
billion in FY '11 in constant dollars. You say that the buildup 
is markedly different from other defense buildups in the past 
because we didn't change end strength by very much, so it is 
not like you can let a lot of people go. And then you note that 
recapitalization and modernization plans for large parts of the 
forces are largely deferred. So the buildup didn't come from a 
lot of extra end strength, and it didn't come from a lot of 
modernization and recapitalization.
    Since 2001, if you take us out to 2011, the defense budget 
is 76 percent higher than it was in 2001. And if you take away 
the OCO [Overseas Contingency Operations], if you take away the 
Iraq and Afghanistan spending, and you assume all that is gone, 
which I know you can't assume, but you take all that away, the 
core defense budget in constant dollars is 39 percent higher 
than it was in 2001.
    If we didn't spend it on end strength and we didn't spend 
it on modernization, where is the money? Anybody have any ideas 
on that?
    Mr. Thomas. The buildup that we have seen over the past 
decade really departs from military buildups we have seen in 
the past, in the sense that it really has been, in many ways, a 
ghost buildup. We have not seen increases and large numbers of 
forces in our active component of the military. We have not 
seen something like the Reagan buildup, where we went out and 
procured all kinds of new systems. With some notable exceptions 
like the MRAP [Mine Resistant Ambush Protected], which has been 
deployed in Iraq and Afghanistan, where has the money gone?
    In particular, one of the main leaders in terms of cost 
growth in the Department has been personnel costs----
    Mr. Andrews. Now, with all due respect, let's talk about 
that. Personnel costs went up by $39 billion--went up by 39 
percent. So they account for $39 billion of this increase. So, 
yes, they have gone up, but, frankly, had they--that is $39 
billion of an increase that is $311 billion. So that accounts 
for a little bit more than 10 percent of it. Where is the rest?
    Dr. O'Hanlon. I think that is a great question and a great 
way to phrase it and frame it. I think about $50 billion or $60 
billion is in what I would call ending the procurement holiday. 
As you know, Congressman, we didn't spend much in the 1990s on 
buying equipment. We didn't need to, at that point. But we have 
had to get back to spending roughly a quarter of the defense 
budget on----
    Mr. Andrews. Actually, it is actually $27 billion of the 
$311 billion.
    Dr. O'Hanlon. Well, I think that in--I think it is a little 
more. I think in the 1990s we were averaging in the range of 
$45 billion to $50 billion a year on procurement, and we are 
now over $100 billion.
    Mr. Andrews. No, procurement was $77 billion in 2001. It is 
$104 billion.
    Dr. O'Hanlon. Well, throughout----
    Mr. Andrews. So that is $27 billion.
    Dr. O'Hanlon. Seventy-seven in 2001?
    Mr. Andrews. Yep. It went from 77 to 101. So it is $27 
billion out of the $311 billion increase.
    Dr. O'Hanlon. Well, you have the advantage of a book in 
front of you that--the overall 1990s average on procurement was 
$45 billion to $50 billion. And I am quite confident of that. 
We needed to get that number up by about $60 billion.
    And so I am not really trying to disagree with you. I 
actually like this framing, because I think it does point to 
where we need to look. Because the other point that I was going 
to get to, where I am hopeful that we would be more in 
agreement, is that there have been a number of inefficiencies 
introduced. There have been some sloppy ways of spending money. 
And I think this builds on Jim's point as well. Some of these 
things, frankly, have been part of the politics of a nation at 
war with an All-Volunteer Force. I think we have put too much 
money into retirement benefits----
    Mr. Andrews. I wanted ask Mr. Boot a question. He talks 
about the 90,000-some troops in Europe and says that their 
mission really is not to defend the Europeans; it is to be 
forward-deployed to achieve other defense objectives.
    What defense objectives could not be achieved if that force 
were based on the continental United States instead of Europe? 
Tell me what specific objectives we could not achieve if we 
moved that force here.
    Mr. Boot. Well, it would be very difficult to carry out 
operations, for example, as we recently did in Libya, if we 
were flying out of the continental United States, unless you 
were flying a B-2 from Missouri, which you can certainly do, 
but you are not going to be flying F-16s, F-15s, A-10s, and so 
forth. You are not going to be operating naval ships to 
blockade Libya out of Norfolk. You have to be forward-deployed 
to do that.
    Mr. Andrews. So what if you got rid of all the bases that 
didn't have air capacity and then just kept the ones that have 
air capacity?
    Mr. Boot. Well, you also have to have a point for Army 
troops. For example, troops deploying to the Middle East often 
go through Germany. And troops that are evacuated--badly 
wounded troops who are evacuated from Iraq and Afghanistan 
often go to a medical center in Germany, which is much closer 
to the theater of operations than would be if they were coming 
back to the United States.
    So there are huge benefits that we gain from having 
forward-deployed bases.
    Mr. Andrews. Mr. Chairman, I know my time----
    The Chairman. Again----
    Mr. Andrews [continuing]. Is up. I would be happy if the 
record could be supplemented by any of the witnesses.
    The Chairman. I would appreciate that.
    Mr. Andrews. Thank you.
    [The information referred to can be found in the Appendix 
on page 97.]
    The Chairman. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    I want to thank each of you for your expertise and being 
willing to come and share with us today.
    I have enormous respect for each of you and for the members 
of this committee, but the ranking member said something that 
just took me back. He said that we had to make some 
unimaginable choices. And I agree with him on that. But I can't 
agree that passing an $800 billion stimulus package that didn't 
work was unimaginable if we hadn't have done that. I can't 
agree that it was unimaginable to not pass a health care agenda 
that is hurting our businesses and hurting our economy 
enormously. What is unimaginable is for us not to defend the 
United States of America. And, fortunately, that is what the 
business of this committee is about, regardless of everything 
else.
    And sometimes I feel like, when we do that, we are in this 
rhetorical war of apples and oranges, and the public doesn't 
see what we are doing. Because it is like being on a computer 
where I digitally zoom in to something with specificity and I 
kind of miss the bigger picture.
    And if we could zoom out for just a moment, Mr. Donnelly, 
you mentioned four components that the Independent Panel had 
looked at: Defending the homeland; access to our seas, air, and 
cyberspace; favorable balance of power across Eurasia; and also 
the common good.
    Tell me, if you would, all four of you, how do we take away 
one of those components and not have a serious impact on the 
others? Because I hear a lot of that in the rhetoric: Let's 
just don't do anything in Asia, let's just don't do anything in 
Europe, let's forget dominating the seas and air superiority. 
How do those interconnect if we zoom back and look at that 
bigger picture?
    Mr. Donnelly. That is a very fine question, and it would 
require more time and more analysis. Figuring out, for example, 
how China's rise will be affected by its ability to get 
resources from not only the Middle East, but Africa, but other 
parts outside of East Asia----
    Mr. Forbes. Then let me ask you to do this.
    Mr. Donnelly [continuing]. Is an important question.
    Mr. Forbes. Take that for the record, but let's----
    Mr. Donnelly. Will do.
    Mr. Forbes [continuing]. Drill in on China.
    Mr. Donnelly. Okay.
    Mr. Forbes. Mr. Thomas, I know this is where you have been 
an expert.
    We are looking an air-sea battle concept that we have spent 
months trying to see and develop. Do we have the resources to 
do that now, forgetting all the cuts? And if not, what are 
these cuts going to look like, in terms of us creating any kind 
of air-sea battle concept that we can deal with? And what are 
the implications to the defense of the country for that?
    Mr. Thomas. Thank you, Congressman, for your question. I 
think it really is terrific because I think there is oftentimes 
a view that everything we talk about--and the reality we face 
is that, in the international security environment, we are 
constantly going to be confronted with new challenges, with new 
threats that are out there, but we are not necessarily going to 
have additive resources to address all of them. So we are going 
to have to make some trades.
    What we have seen with China building up over the last 15 
years in terms of its anti-access and area-denial capabilities, 
its submarines, its ballistic and cruise missiles and other 
forms of precision weaponry, are only the first manifestation 
of what we are going to see in other places around the world--
in the Persian Gulf and even with non-state actors, like 
Hezbollah, as they acquire some of these systems in the future.
    Across the board, whether you are talking about the Western 
Pacific or the Persian Gulf or other areas around the world, 
the operating environments in which our forces are going to 
fight are going to be far less permissive in the future than 
they have been in the past.
    And this is really what concepts like air-sea battle are 
driving at: How do we maintain our ability to project power 
transoceanically as a superpower to these areas where we have 
vital strategic interests, to defend allies, to ensure the free 
flow of critical resources to and from those areas? That is the 
real challenge at hand. But the concepts, I think, are really 
critical, providing the intellectual guidance that helps us 
connect the resources with those objectives. How are we going 
to accomplish these things?
    And, in particular, in a world which is going to become 
increasingly less permissive, how do we think about 
rebalancing? Some of our forces that we have today, some of the 
capabilities we have today really depend on very benign 
assumptions about the environments in which they are going to 
fight. They assume that we will be able to use forward bases 
and operate from them. They assume that our satellite 
communications will not be attacked or that our cyber networks 
will not be attacked. These are very fragile assumptions on 
which to base----
    Mr. Forbes. What is the implications, any of you, in the 50 
seconds I have left, on us not getting that right just with the 
Pacific alone?
    Mr. Boot. I would just remind committee members that 3 
years ago, in 2008, RAND was already projecting that by 2020 we 
would not necessarily be able to prevail in a conflict with 
China over the Taiwan Strait. And that was before the unveiling 
of the J-20 stealth fighter; that was before China put a new 
aircraft carrier into the water. The balance is tilting very 
rapidly against us already in the Pacific, even without these 
major cuts. And that trend will be exacerbated with the cuts.
    And you have to think about, what does that mean for our 
allies? People talk about allies doing more. Well, if we have 
allies like Taiwan, South Korea, and Japan doing more, they may 
well decide that they need their own nuclear arms. They may 
well set off a nuclear arms race with China because they can no 
longer count on American protection. That is a much more 
dangerous world.
    Mr. Forbes. Thank you.
    The Chairman. Thank you very much.
    Mrs. Davis.
    Mrs. Davis. Thank you.
    And thank you, gentlemen, for being here today and engaging 
in this discussion.
    Last week, when General Pace was here, along with a panel, 
he testified that we really don't have a cohesive national 
security strategy. And he suggested we need something akin to 
an interagency Goldwater-Nichols Act in order to have a 
coherent national strategy--national security apparatus which 
combines all elements of national power.
    I know, Mr. Donnelly, you mentioned that the military 
became very adaptive but the rest of Government has not.
    I wonder if you all could comment, beginning with Dr. 
O'Hanlon, perhaps, but others, what importance do you place on 
this issue in terms of our defense overall and in terms of the 
budget constraints that we are facing today?
    Dr. O'Hanlon. Well, thanks, Congresswoman. A big question. 
I will just maybe make one specific comment.
    On the issue of interagency collaboration, I am sympathetic 
to the idea, but I am not sure that is really the crux of it, 
because I think that the crux of it really is deciding where we 
have irreducible requirements overseas that we have to be 
prepared to help defend militarily.
    The State Department and other agencies are very important, 
but their costs are so much less, as an order of magnitude, and 
their missions are fundamentally different, that I think if we 
are thinking about first principles on defense spending, this 
is an important conversation, but I would begin with key 
interests and threats. That is why I start with Korea, the 
Western Pacific, the Persian Gulf. And I don't want to go into 
detail on each one. I would also add South Asia and possible 
Indo-Pakistani problems.
    But let me just say one word on Korea because it has come 
up a couple of times. I don't think the North Koreans are going 
to wake up tomorrow and decide, ``Let's give it a shot. Let's 
try to reunify the peninsula again.'' That is not the way the 
war is going to begin. That is not the scenario we have to 
worry about.
    What they might do, like they did last year, is some other 
kind of unprovoked, cold-blooded aggression in which they 
killed 46 South Korean sailors out of the blue. They might also 
intensify their uranium enrichment program. They might start 
talking about selling fissile material to overseas groups. By 
the way, they have done some of that before, at least in terms 
of the technology, the underlying technology, if not the 
fissile material. They might, in other words, provoke crises in 
one way or another.
    What do we do in response? I am not saying we dust off the 
preemption doctrine and go after them, but I am suggesting that 
firmness and a demonstrated capability to handle any kind of a 
conflagration are important. And, also, looking at niche 
technological capabilities where we need to get better, not 
just hold the line, but get better: Missile defense, precision 
strike against their long-range artillery.
    And we also need to be able, if there is, Heaven forbid, a 
war, to get some number of American ground forces there fast, 
because the South Koreans are going to need help in securing 
the perimeter of the country so the existing nuclear arsenal 
doesn't escape before we can prevent that from happening. The 
South Koreans can handle the longer-term occupation, assuming 
that reunification is the destination we would be headed toward 
in this kind of a conflict, but they are going to need help at 
first to make sure those fissile materials don't get loose.
    And so a future Korean contingency, I think, needs to be 
part of our planning framework. And that is just one example of 
how I don't see an easy ability to discard certain interests or 
threats. I just think we have to be a lot more creative in 
protecting some of these more economically and innovatively. 
But I don't think there are too many that we can actually 
discard.
    Mrs. Davis. Uh-huh.
    Mr. Boot, did you want to comment?
    Mr. Boot. Well, I just wanted to add, on the subject of 
interagency cooperation, which I am very much in favor of, I am 
very much in favor of enhancing the State Department and other 
civilian capacity to take on some of these tasks which have 
been given to the military, but we have to be realistic about 
it and understand that their capacities are, as Mike suggested, 
an order of magnitude lower than those of the Department of 
Defense, and they could not possibly fill the gap of what the 
Department of Defense does.
    We are actually going to see a test of that, by the way, in 
Iraq, where currently there are about 46,000 troops. At the end 
of the year, their task is going to be performed by maybe 3,000 
troops and 1,000 State Department personnel. I am very 
concerned about that happening. But if you can imagine that 
writ-large across the rest of the world, I don't think there is 
any way that the civilian branches of government can make up 
for what the U.S. military does, and not only in terms of 
fighting and deterring wars, but even in the engagement mission 
and the kind of military exercises, the kind of engagement that 
foreign area officers and others undertake, which are such a 
vital part of our diplomatic effort overall.
    Mr. Donnelly. If I could be very quick, I would really 
worried that, in this budget environment, that a lot of the 
progress that has been made over the past 10 years is likely to 
be lost. The State Department has not resolved, but I think has 
taken seriously, the question of its larger development role, 
its role in, kind of, state-building, if you will, just to use 
the shorthand terms.
    And, also, I would worry about losing the close integration 
that we have achieved between the intelligence community and 
the military, best epitomized by the raid that killed Osama bin 
Laden. As Jim kind of suggested in his initial statement, those 
kinds of capabilities are likely to be things that we will want 
to have in other situations in a very different environment in 
the future. And I think the temptation and, sort of, the 
bureaucratic impulse will be for the departments to protect 
their core missions.
    Mrs. Davis. How would you want to see those issues framed, 
though, so that that doesn't happen? Because, you know, it is 
one thing for the Defense Department to say, ``Yeah, sure, we 
want the State Department funded,'' but it is another thing to 
find out ways in which they can economize in order to do that.
    Mr. Donnelly. Well, as I said, this has not really been 
resolved over the past 10 years. A lot of the progress that has 
been made and has been paid for, kind of, in a year-by-year 
supplementally funded kind of way, there--you know, AID [U.S. 
Agency for International Development], for example, has not 
been really refashioned into an appropriate or, really, 
powerful agency.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you all for being here today.
    I also want to thank our colleagues on the other side. This 
really has been, again, a bipartisan hearing. In fact, I had to 
ask Congressman Forbes who had been invited by which party. And 
so, that is the way it should be, because, indeed, the primary 
function of the national government is national defense.
    And, Mr. Donnelly, I appreciate very much your citing 
victory in the Cold War. Truly, people seem to have forgotten 
how successful the American military was with our allies: the 
greatest spread of democracy and freedom in the history of the 
world. Whether it be from Lithuania to Thailand, South Korea to 
Bulgaria, there are dozens of countries today free that have 
been under authoritarian and totalitarian regimes, and the 
people are blossoming, which is good for them and us, and it 
fulfills the dreams of President Reagan of peace through 
strength.
    With that, briefly, if possible--and it has been touched 
on--but for each one of you, beginning with Mr. Thomas over, 
what do you see as the biggest threats facing the U.S. today? 
What should the U.S. military role be in deterring the threat? 
And how is our level of preparedness?
    Mr. Thomas. I think, unlike the period after the Second 
World War, where the United States faced one major threat, in 
terms of the Soviet Union and the expansion of Stalinist 
communism around the world, today we face a panoply of threats. 
But I would really pick on three.
    The first is the continued rise of China and particularly 
the growth of its military capabilities that are of concern. 
China is not necessarily an enemy, but we have to be mindful of 
the capabilities that it is developing, as those can challenge 
our own military and strategic position.
    The second is the rise of new nuclear powers--countries 
like North Korea, as Michael discussed, Iran, and others that 
are emerging. If we think about land combat operations in the 
future, the greatest challenge we would face is conducting them 
in WMD environments.
    And the last, really, is, we have seen with Al Qaeda and we 
have learned our lesson since 9/11 in terms of dealing with a 
non-state actor that can use great forms of violence almost 
like a state. We may face others in the future along these 
lines, and we need to be mindful. And I think this places a lot 
of emphasis on the need for a preventive aspect in our 
strategy, of trying to prevent these small groups from 
emerging, working with others in the world and building partner 
capacity so that countries can police themselves effectively 
within their borders and not permit them to become sanctuaries 
to groups like Al Qaeda.
    Thanks.
    Dr. O'Hanlon. Congressman, thank you for the question. I 
will just add a brief word on Iran.
    And it is an interesting question and a reasonable 
question: What kind of a threat does Iran really pose? What 
would it want to do if it had more power and saw us doing less, 
you know, if it saw us retrenching? And, of course, this is a 
difficult question to answer, but I think we can look at a 
couple of things about Iran's recent behavior and speculate 
usefully.
    One, it would up the pressure on Israel even more through 
Hezbollah and Hamas.
    Two, it would try to create weak states to its west, as it 
has tried in Iraq for many years. And, of course, it had a war 
with Iraq, which may have left a legacy of mistrust there, but 
even when Iraq was being run by a Shia-majority government 
after the overthrow of Saddam, Iran was more interested in 
keeping Iraq weak. And even after it saw that whatever George 
Bush's early preemption doctrine might have implied and might 
have made some Iranians worry that they could be next, by '05, 
'06, it was obvious that they were not going to be next. This 
country was not about to embark on another preemptive campaign, 
and yet Iran kept up the arming of the Shia militias and even 
Sunni extremist forces to cause us casualties and to keep Iraq 
weak.
    So I think Iran would welcome a Middle East that is 
dominated by trying to push Israel, at a minimum, out of the 
West Bank area but maybe even out of existence and weakening as 
many Sunni-majority and even Shia-majority Arab states as it 
could. And that would be its preferred Middle East and the kind 
of threat we need to worry about.
    Mr. Wilson. Thank you.
    Mr. Donnelly. I would just agree with what both Mike and 
Jim have said but draw a little bit of a line underneath the 
question about China's future.
    The rise of a great power within the context of a global 
system is a somewhat unprecedented historical situation. We 
tend to think of China really as an East Asia power. It is 
already a global actor. And even if there is not a direct 
confrontation with China, I can imagine that there will be, 
essentially, proxy competitions, if not conflicts, in other 
theaters.
    Mr. Boot. I don't think I have time to comment, but I 
basically agree with my colleagues.
    Mr. Wilson. Okay. I thank all of you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Dr. O'Hanlon, you were sort of in the middle of your answer 
to Mr. Andrews a while ago, talking about the ghost buildup. 
And you talked about the sloppiness factor, in terms of where 
some of the money went. I am not sure if you had a chance to 
finish your thought, and I wanted to just give you an 
opportunity to revisit that.
    Dr. O'Hanlon. That is kind of you, Congressman. And maybe I 
used the word ``sloppy'' in a little bit of a too quick of a 
way, because maybe the better word is just ``undisciplined.''
    I think there were areas of military compensation, for 
example, where we said, ``Listen, we are a Nation at war, we 
have an All-Volunteer Force that we are asking to do really 
unreasonable things on behalf of the rest of us, and we are 
going to err on the side of providing more money than we may 
need in certain areas.'' I am not talking about deployed troops 
and their families or survivors or the injured. I am talking 
about, you know--and I don't want to beat on them too much, but 
sort of the mid-career retiree who goes on and maybe winds up, 
you know, in a job at Brookings or runs for Congress or has 
some other nice income, and they are not asked to pay even a 
basic, normal health-care premium, for example.
    Or a retirement system that, as much as we do understand 
there is deferred compensation in the military, why do we feel 
that it is okay to ask a young person, an enlisted person, to 
work for 5 or 10 years and serve the Nation and go in harm's 
way, leave the military with no retirement whatsoever, but then 
give a very generous package to a retiring major or colonel? 
And there are ways to reform that system and also save some 
money in the process.
    These are the kinds of ideas that I think perhaps 
Congressman Andrews and I might agree, in philosophy, that 
there are some needs to relook at some of the decisions we've 
made in the last 10 to 20 years. And sometimes I think the 
politics of defense spending in a time of war lead us to do 
things that are not as efficient as they should be. That is the 
spirit of what I was trying to say. And I think several tens of 
billions a year in annual spending are involved in these kinds 
of things.
    Mr. Courtney. I mean, obviously, another piece of the 
sloppiness factor is in procurement. And there has been another 
spate of stories just in the last couple of months about, you 
know, embarrassing overpayments by the Army and others for 
parts that off the shelf, you know, would have been a fraction 
of what--I mean, is that just something that is just like the 
weather, we have to live with it.
    I mean, you know, if we are looking at ways to save money, 
it just seems like, you know, waste, fraud, and abuse, which is 
kind of a nice phrase and easy for everybody, but, I mean, is 
it hopeless for us to ever sort of expect to have a system that 
actually, really, you know, the taxpayer would feel total 
confidence is really working to get the best price?
    Mr. Boot. If I could just jump in on that, I think you are 
right to talk about the waste, fraud, and abuse and about the 
runaway procurement. We all know it is out there. What I don't 
know and I don't think anybody has a great solution for is how 
do you reform that so you can suddenly get more bang for your 
buck.
    Now, I think there are things you can certainly do at the 
margin, but I think it is unrealistic to expect that we can 
suddenly wave this magic wand and all of the sudden we cut 
defense spending by one-third but still produce the same 
defense capacity that we were producing before.
    At the end of the day, we all decry the huge cost of 
weapons systems and the rising cost, but we don't know how to 
create that cutting-edge capacity at a much lower cost. And I 
don't think that is going to change in the next 6 months; it is 
not going to change in the next year. All that is going to 
change is we are going to cut back on the top line, and the 
systems will get cancelled. They are not suddenly going to 
start to be produced for a lot less.
    Mr. Donnelly. One last shameless commercial for the QDR 
Independent Panel, which addressed this subject directly.
    I was convinced, in listening to that discussion, that the 
single most important thing we could do is procure things in a 
timely fashion. What has really been a killer over the last 
decade has been this protracted development period where the 
original technologies get overtaken by new technologies, and so 
bells and whistles are added and added and added and 
requirements added and added and added.
    And things like the F-22 or the Future Combat Systems are 
perfect examples of those, whereas the previous generation, 
with the F-16 being the perfect example of something that was 
bought as a simple daylight fighter in large numbers and has 
been revised and modified to do a range of missions that was 
never anticipated, is a much better model.
    So a lot of the money that has gone down the rat hole has 
gone to changing our minds, deferring development, with the 
result that we get 187 F-22s for what we originally planned to 
get 750 aircraft for essentially the same amount of money.
    Mr. Courtney. Thank you.
    Really quick, Dr. O'Hanlon, your recommendation about 
eliminating one leg of the triad--I mean, we have heard a lot 
of testimony about rising nuclear states. I mean, how does that 
sort of dovetail?
    And thank you.
    Dr. O'Hanlon. No, it is a very good question. I think, 
Congressman, what I would do, in terms of nuclear capability, I 
would not reduce our forces any faster than Russia reduces its. 
I would make sure that in this period of transition we stay 
well ahead of China, not so much because I anticipate a nuclear 
exchange, but I just don't want to give China the wrong kind of 
encouragement or wrong ideas about, you know, being able to 
catch up and all of a sudden act the part. And I would make 
sure that our nuclear weapons are safe and reliable.
    That leads to a number of recommendations, but I think you 
can do that and still take, potentially, one leg out of the 
triad or at least cut back systematically across a couple.
    Mr. Bartlett. [Presiding.] Thank you.
    I would like to ask members of the panel if you could also 
watch the countdown clock. And when it reaches zero, try to 
conclude your answer as quickly as possible so that we don't 
have to rudely use the gavel here. Thank you very much.
    Mr. Runyan.
    Mr. Runyan. Thank you, Mr. Chairman.
    And, gentlemen, thank you for coming today.
    We have brought up the word ``adaptive'' many times. I have 
a few questions. I think they pertain more to our Guard and 
Reserve Component, which I think is very adaptive. And from 
speaking to the generals that I deal with in the Guard and 
Reserve, they tend to run a lot more efficiently and cheaper 
than our traditional forces.
    What do you see--and I probably won't get to each of you--
but what do you see for the future of the Guard and Reserve as 
we move forward, and how we are implementing them in our fights 
as of now? And also, from the components' ability, from an 
equipment perspective, pre-9/11 to now also?
    So, Mr. Donnelly, do you want to start?
    Mr. Donnelly. Yeah, I will try to be quick.
    Really, the adaptability of the Guard and Reserve has 
surprised everybody who would have pretended to be an expert on 
9/11. They have deployed more frequently, performed more 
competently, had non-deployment rates that are far below what 
anybody would have anticipated. That said--and they have become 
essentially an operational reserve. The distinction between the 
Active Force and the deploying Guard and Reserve force is much 
less than it used to be.
    That said, there is still a marginal cost associated with a 
mobilized--when you use them, that is when the cost, you know, 
arises. It is, again, much less than anybody imagined it would 
be. These guys have adapted and performed and have been 
deployed over and over again and done yeoman work. And I think 
we still are trying to understand what that may mean for future 
strategy-making. It also means that they are not a genuinely 
strategic reserve; they are just on the conveyor belt at a 
slightly slower pace than the Active Force is.
    Mr. Thomas. If I could just add, I think, as we look ahead, 
there may be some real changes that we can make, and real 
opportunities, as we think about broader changes in our roles 
and missions across the military in terms of how we would use 
the Reserve Component.
    New missions that are out there--missions like cyber 
warfare and thinking about operating unmanned air vehicles and 
other unmanned systems in the future--these may actually be 
very well-suited for the use of Guard and Reserve forces in the 
future, especially given the synergies with some of their 
civilian occupations.
    Dr. O'Hanlon. Just a brief note. I think it is always worth 
relooking, but I think that, at a time when you are doing 
sustained operations, the economics of it are more or less a 
wash between the Guard and the Active Forces. If you are 
doing--if you are preparing for the one biggie that may or may 
not ever happen, then I think there is a little bit more of a 
shift toward the Guard being preferential, in some ways, or 
advantageous.
    But I think, on balance, I feel pretty comfortable with the 
current mix. But just to back up, I think, Congressman, some of 
what you were driving at, that is a mix that now supports the 
Guard and Reserve more than we used to. And as we draw down 
from these conflicts, I think we have to remember that it took 
some effort to get them to where they are today, and we 
probably want to keep them there, in terms of capability.
    Mr. Runyan. Mr. Boot? No?
    Thank you all very much.
    I yield back, Mr. Chairman.
    Mr. Bartlett. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I wanted to give Mr. Boot, in particular, one more chance 
to come up with constructive suggestions for defense cuts that 
could be made without endangering American strength. You may 
dismiss some of these ideas as marginal, but I think it is very 
important that every sector of our Government make a good faith 
effort to root out waste, fraud, and abuse.
    Mr. Boot. Well, Congressman, I think that the Defense 
Department actually has made a good faith effort, and, as we 
saw in the last 2 years, Secretary Gates either cancelled or 
reduced numerous acquisition programs. I mean, when you look at 
the--as well as closing headquarters, like the U.S. Joint 
Forces Command, eliminating general officer slots, eliminating 
the Future Combat System, eliminating the Expeditionary 
Fighting Vehicle, the VH-71 helicopter, the CG(X) cruiser, 
ending the buy of the F-22 and the C-17, ending the Airborne 
Laser, delaying the aircraft carrier, the F-35, littoral combat 
ships, reducing--vowing to--announcing a reduction in Army and 
Marine end strength by 47,000 personnel, I don't think anybody 
can argue that the Defense Department has been exempt from 
cuts.
    In fact, the way I look at it, the Defense Department----
    Mr. Cooper. I didn't argue that, sir.
    Mr. Boot [continuing]. Has already taken----
    Mr. Cooper. I didn't say that they had been exempt from 
cuts. I was asking you for constructive suggestions of what 
could be done, going forward, to trim waste from the defense 
budget without endangering American strength.
    Mr. Boot. I think it would be very difficult to do, as I 
was trying to suggest. I think that the cuts----
    Mr. Cooper. So you would have no suggestions?
    Mr. Boot. I don't. Because I think we have already cut 
defense considerably. We have already----
    Mr. Cooper. So the military budget is currently perfect?
    Mr. Boot. No. Nobody argues that the defense budget is 
currently perfect, but the world is----
    Mr. Cooper. Well, show me how it is imperfect.
    Mr. Boot. The world is highly imperfect. There are a range 
of contingencies, Congressman, that we have to be prepared for, 
and I don't think that there are easy cuts to be made. My 
colleagues, Jim Thomas and Mike O'Hanlon, have----
    Mr. Cooper. I didn't ask for easy cuts, I asked for any 
cuts. Is there any waste in the Pentagon budget? And if so, 
where is it? You are a defense expert, you----
    Mr. Boot. I think that Secretary Gates went about as far as 
one could possibly go in responsibly cutting back defense 
programs over the last couple of years. I would not be 
comfortable advocating more defense program cuts, which I 
believe would imperil the security of the United States.
    Mr. Cooper. So any cut at all in the defense budget would 
imperil the security of the United States?
    Mr. Boot. I suppose if you had a $5 cut in the Defense 
budget it would not imperil the security of the United States.
    Mr. Cooper. Can you help us identify any of those $5 cuts?
    Mr. Boot. Well, we already--Congressman, I don't know why 
it is necessary to identify cuts when we are already cutting a 
record----
    Mr. Cooper. You are a defense----
    Mr. Boot [continuing]. This year alone, as the chairman 
noted, we are already this year cutting $465 billion from the 
defense budget. I don't know why there is a need for more 
defense cuts. I certainly don't see it from a budgetary 
perspective, and I definitely don't see it from a strategic 
perspective.
    Mr. Cooper. Mr. Boot, you are a defense expert, and you 
know that the GAO [Government Accountability Office] has 
identified the Pentagon budget for almost two decades now as 
one of the highest-risk areas of all of Federal spending, due 
largely to its inauditability, its untraceability. The Bowles-
Simpson Commission, when they asked Secretary Gates whether 
they had 1 million defense contractors or privatized 
outsourcers or 10 million, they couldn't tell the difference.
    Mr. Boot. Well----
    Mr. Cooper. The Defense audit agency itself was found 
guilty of not adhering to generally accepted accounting 
standards. So, lots of times, we literally don't know where the 
money is going. Is that defensible?
    Mr. Boot. Congressman, you will find waste, fraud, and 
abuse across all sectors of government. But, as was pointed out 
here before, I think that the Defense Department is actually 
the most important department of our Government because it is 
the one that provides for the common defense. And I don't know 
any way that we can simply take out a line item for waste, 
fraud, and abuse and leave our military capacity intact.
    There are differences and, certainly, arguments that occur 
on the Hill all the time in terms of what is actually wasteful 
and abuse. And we see many instances, when the Pentagon tries 
to eliminate programs, they all have their champions on the 
Hill, all of them arguing that these are not, in fact, pork 
barrel spending but, in fact, vital programs. So I don't think 
there is any consensus about what constitutes the wasteful 
programs.
    Mr. Cooper. With your expertise, surely you could help 
advise us on locating areas of, at least, lower-priority 
spending.
    Mr. Boot. What I am----
    Mr. Cooper. Surely you could help us clean up the 
procurement process. Surely you could use your experience and 
wisdom to trim some of the excess.
    Mr. Boot. Congressman, as I said before, I don't know how 
to usefully reform the procurement process to save money. Many 
of the procurement reforms we have had in the past have 
actually wound up adding costs rather than subtracting them. I 
don't think we have any consensus in this town about how to 
reform procurement so we can do more with less. And that is not 
going to----
    Mr. Cooper. So you are giving up?
    Mr. Boot. We are not going to have a magical way to do that 
in the next year that will----
    Mr. Cooper. You are giving up?
    Mr. Boot [continuing]. Allow us to cut the defense budget 
without losing vital military capacity, something that Bob 
Gates, Leon Panetta, and other leaders have warned about.
    Mr. Cooper. Uh-huh.
    I see that my time has expired, Mr. Chairman. I am 
disappointed that someone with such noted defense expertise 
would give up such an important task.
    Mr. Bartlett. Thank you.
    Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman.
    And I thank the panelists for being here. I certainly have 
enjoyed reading your materials and research in the past. And I 
think, without a doubt, everyone on the committee here wants to 
make sure that we protect our cherished way of life. I think 
that we diverge when we start to look at the specifics of that.
    And I guess I would challenge in the main direction of the 
testimony this morning. I really think it comes down to an a 
priori question of what our role should be in protecting our 
cherished way of life vis-a-vis other countries in the world--
Iran, North Korea, China, Venezuela--the list--we could go on, 
certainly of concern, but the question is, what would a vibrant 
republic do in response to that?
    From my vantage point, from my experience and my research, 
if we continue on this path of assumptions, there isn't going 
to be any amount of increase that is successfully going to get 
it done. We are just not. We can find threats until the end of 
the earth, and we are not going to be able to address it. I 
think there is a fundamental question--I mean, look, what would 
be the point of having a military with the force projection and 
capability of the Roman legions if Rome no longer existed?
    So I think what we really need to do is have an a priori 
discussion about what it means to protect our cherished way of 
life in a manner consistent for a republic and then do a QDR 
based on those assumptions. And I would maintain that where we 
would go first is looking at how we can better neutralize the 
extremist threat.
    I think that if you look at the intel [intelligence] 
community, we have had a threefold increase in our intelligence 
agencies and funding. And, in my view, while we have incredible 
professionals in the intel community, we have a system that 
really confuses and really disappoints. And there are many 
examples; the Christmas Day bomber of 2009 is just one 
illustration.
    And then streamlining the intelligence community and 
infusing it with operations in a manner that I saw tactically 
and, to some degree, operationally as the G3 of Multinational 
Division-North during the surge--highly effective, an 
integrated joint special operations task force working with 
conventional forces and local forces to neutralize the 
leadership of Al Qaeda. I don't see, sort of, a same global 
reach in response when I look at us neutralizing the Al Qaeda 
threat.
    And then, beyond that, taking a look at the way we command 
and control forces, the way we lay down forces, the way we 
arrange our national security.
    So I am concerned, as somebody who looks at this broadly 
across the full spectrum of American life and looking at the 
priorities that we have, that if we continue on this line of 
thinking, we are just going to basically move until we burn 
out, until we don't have the funds to get done what we need to 
get done and as we crumble as a republic.
    So I guess, you know, challenging the direction of most of 
the testimony this morning, with all due respect to your 
incredible research and certainly your publications that stand 
behind, I would be curious to your response to that.
    Dr. O'Hanlon. Congressman, very eloquent and provocative 
and useful. Let me just say one thing--well, actually, two.
    First, missions that I would not say we need to be ready 
for: You mentioned Venezuela. I don't see any need to provoke a 
fight there. Russia: Russia is still prickly and problematic, 
but I don't think it has a major role in our defense planning; 
I don't think it should be. I think the Bush administration 
handled the 2008 Georgia crisis more or less correctly, which 
was not to brandish our sword. I think we have to be willing to 
say that there are certain parts of the world where the risks 
are too high for the stakes, and we have to use the threat of 
economic sanctions or some other means of trying to defend our 
values and interests.
    And then, finally, let me say just one brief word about 
where I think the strategy is working. Because you implied 
that--and I think you are right--there is a danger that the 
price tag could keep going up. I think the strategy is 
basically working at current spending levels in regard to 
China. Now, Jim is right, others are right on the panel to say 
that we have to worry about Chinese capabilities. But the 
overall strategy, I think, is working. China is becoming an 
incredibly impressive superpower without using force, at least 
so far, to try to assert itself, and partly because we have 
been so firm and resolute in the Western Pacific and so capable 
in working with our allies, which is a huge strength of our 
broader national security policy.
    So I think that is not a situation where the price has to 
keep going up, but I think we'd better be careful about cutting 
the price and the capability too much.
    Mr. Donnelly. If I may very quickly, I just don't see it as 
being an unsustainable system. If you look at it as a slice of 
proportion of GDP, of American wealth, the cost of American 
military power has diminished and diminished and diminished, 
but the extent of its effect has been absolutely global. We get 
an immense bargain. And even if you include the war costs, it 
is less than 5 percent of GDP.
    The numbers used by Mr. Andrews mostly reflect the expanded 
size of the American economy. We are wealthier, even allowing 
for the difficulties of the last couple years. We can certainly 
afford to do what we have been doing for the foreseeable future 
if we choose to.
    Mr. Gibson. Okay, Mr. Chairman. Well, I appreciate their 
responses, and I guess we will have to continue the dialogue 
going forward. Thank you very much. I yield back.
    Mr. Bartlett. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    Mr. Donnelly, can we kind of continue where you were? And I 
am very curious, first of all, this statement that you make in 
your second paragraph in your testimony where you basically do 
not concur with Admiral Mullen's views that our deficits and 
debts are the greatest security challenges that we face, and 
you said you are worried about our future prosperity depending 
first and foremost on our future security.
    So it is kind of an open-ended question, but what exactly 
are you saying with that statement?
    Mr. Donnelly. I am saying that the global trading system, 
which is the source of our economic growth but also the source 
of economic growth around the world, rests on a system of 
safety and security that is essentially provided by the United 
States--there are others who help--and that the costs of trade 
and the profits and the economic growth that accrue from trade 
would be put at risk if the seas, the Internet, the skies, all 
those common areas, and the international politics were more 
contentious, more ridden with conflict, and that our prosperity 
would suffer from international political competition and the 
prospect of war.
    Ms. Hanabusa. I am also very interested in the fact that 
your expertise is in China. And I represent Hawaii, and, of 
course, China is--the Pacific is very important to me.
    I happen to believe that when you speak about the stability 
in the Pacific, I know one view of it is that the United States 
is providing the stability in the Pacific. The other view is 
that, because the United States is providing a certain amount 
of stability in the Pacific, it permits China to do its 
economic growth, which is really--and being the number-one 
trading partner. And that is something that we are not able to 
really compete in.
    So, in that light, when you say about the United States' 
future prosperity--and we are doing this stability or we are 
providing something that permits China to now do the economic 
stability and trade--do you see that at some point we are going 
to have to change our focus in the Pacific and become more 
active in one of those areas?
    Mr. Donnelly. You make a critical point, and I think 
actually both are true. China's economic rise, its prosperity, 
would be unimaginable but for the stability and security of the 
regional trading system that is based on American military 
power. That has been a great thing for China; it is a great 
thing for humanity. Hundreds of millions of people who were in 
abject poverty are now prosperous, and it has been a benefit to 
the United States and, indeed, to the world.
    However, the direction, as Jim and others have pointed out, 
the direction of China's military modernization is solely in a 
direction that would tend to upset or overthrow the security 
system now in place. And those are two paths--you know, that is 
a collision course, and I don't think that--that is why I would 
say that the direction that China is taking is the most 
worrisome aspect that I see in the future.
    Ms. Hanabusa. Thank you.
    Dr. O'Hanlon, you said something very early in passing. And 
when you came in, you mentioned something that I am very 
curious about. And you said something about 35 to 40 percent 
more utility on our Navy. And I assume what you were getting at 
was sort of like keeping our--or utilizing our forces sort of 
like a float. That is the way I refer to it. And if I am 
mistaken, can you please explain what you meant when you said 
35 percent more efficiency with the Navy, especially in the 
Pacific?
    Thank you.
    Dr. O'Hanlon. Thank you, Congresswoman.
    The basic idea here is that, I think as you appreciate, 
especially serving from where you do, whenever we send ships 
from harbor off to a distant region, we lose the time in 
transit, but on top of that we also--the Navy enforces a very 
appropriate policy of no more than 6 months away from home 
station for any sailor, unless it is an extreme circumstance. 
And when you go through the math on all of that, plus allow the 
Navy to then shift crews from one station to another, you know, 
after a 2- or 3-year billet, and then allow for ship repair, 
you wind up with a situation where the Navy needs about, on 
average, five ships to maintain one steady forward deployment 
in an overseas theater. If we homeport more in places like Guam 
or even Hawaii, we will improve the ratio somewhat. But, 
largely, this is because of the tyranny of distance.
    Whereas if you leave the ship overseas and you have 
adequate local maintenance capability in a port, Singapore or 
someplace else, you can actually leave the ship maybe for 12 to 
18 months and then you can rotate the crew by airplane. That 
means the crews have to share ships, both on the deployed end 
and on the training end. And it gets complicated. The Navy 
doesn't like it for that reason, that there are idiosyncrasies 
to any ship; they would rather have one crew stay with the ship 
all the time. I think there are also, frankly, parochial, 
budgetary reasons why the Navy prefers not to do this.
    But that is what it boils down to. And if you do the 
rotation by sealift--or, excuse me, by airplane, you can 
actually get 35 percent more capability, more days on station 
for a given number of ships in the fleet.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    I would like to hear your thoughts about missile defense. I 
just had an opportunity a couple weeks ago to travel to Israel. 
And while we were there, Hamas, from the Gaza Strip, was 
lobbing rockets in there, and it was encouraging to see their 
``Iron Dome'' being successful in addressing that.
    And according to a 2010 edition of the annual report of the 
Director of national security on ``Acquisition of Technology 
Relating to Weapons of Mass Destruction,'' it says, Iran 
continues, quote, ``developing space launch vehicles which 
incorporate technology directly applicable to longer-range 
missile systems.'' And it also said North Korea ``continues to 
pursue the development, production, and deployment of ballistic 
missiles with increasing range and sophistication and continues 
to develop a mobile IRBM [intermediate-range ballistic missile] 
as well as a mobile solid propellant ballistic missile.''
    So, in view of the risk that growing ballistic missile 
threats pose to the United States homeland, do you have 
concerns about budget cuts to missile defense, especially as it 
relates to the United States?
    Mr. Thomas. I think for all of the reasons you just 
mentioned, ballistic missile defense, as well as defense 
against even shorter-range guided rockets and even artillery 
systems, as you talk about the Israeli case, these capabilities 
are only going to become more important as we look out ahead.
    One of the key challenges is thinking about how we change 
the cost-exchange ratio between those sorts of systems and the 
sorts of defenses that we will develop and deploy in the 
future. One of the promising areas that we would want to 
protect among many R&D programs as we look ahead, no matter how 
austere our budget cuts, is going to be looking at directed 
energy weapons systems. This is potentially a game-changer that 
is out there, not only for missile defense but for countering 
swarming naval activity on the part of the Iranians and in a 
host of other fields.
    Mr. Boot. I would just add that this is not cheap. I mean, 
this is, as you rightly point out, this is a major threat that 
we face. I think the American people expect us to defend 
ourselves and our allies against the threat of missile attacks, 
certainly the threat of WMD attack, but this is on top of all 
of the other expenses that we bear for defending numerous other 
vulnerabilities. This is just another vulnerability that we 
absolutely have to address.
    And dealing with some of the threats that Jim points out 
are absolutely accurate: the anti-access threats, the cyber-
weapons threat, threats to our satellite capabilities, threats 
to our homeland from ballistic missile attacks as well as from 
terrorist attacks. All of these are very real, and they are not 
going away. And what that suggests to me is the impossibility 
of massive cuts if we are going to deal with all of these 
threats, real or possible, that we face in the next few years.
    Mrs. Hartzler. Mr. Donnelly.
    Mr. Donnelly. Yeah, I would agree with both Max and Jim, 
particularly on the technology of directed energy. One of the 
unfortunate cuts of recent years was to the Airborne Laser 
program, which was not a perfect system in many ways but I 
think was a critical program for exploring what direct energy 
would mean, not just in the missile defense role but in the 
other roles that Jim suggests.
    I just think this problem is metastasizing in ways that we 
will find very difficult to catch up to simply by looking at it 
as an intercept question. You have to look, I think, at what 
would happen before launch and try to identify where the 
launches are likely to come from and, particularly when you are 
talking about China or other larger scenarios, what a war, a 
longer war, after an exchange hopefully not of nuclear warheads 
but of a big conventional barrage, would mean. Would we be able 
to recover and to make sure that that was not a knockout blow, 
so to speak, that would take us out of the war?
    Mrs. Hartzler. Do you want to comment?
    Dr. O'Hanlon. Go ahead. I mostly agree.
    Mrs. Hartzler. Okay. Well, we just have 30 seconds. But, 
even without cuts, how do you view our ability to defend 
ourselves in missile defense? Like, from a 1-to-10 scale, how--
if 10 being that we are ready, we are able to protect and 
defend ourselves, where are we at today?
    Dr. O'Hanlon. I will start with a 5. I think we are pretty 
good against--I shouldn't say we are pretty good--we are 
getting better against low-technology, small-numbers-of-attack 
threats. We are not very good--and I am not sure, frankly, that 
we would be all that good even if we increased the budget in 
the short term--against decoys and other such sophisticated 
threats.
    Mr. Thomas. If I could just quickly second the 5. I think 
that some of the key areas where we are going to have trouble 
as we look ahead are going to be in the shorter-range systems 
that our deployed forces are going to face in the field and 
many of our allies are going to face, as well as in terms of 
the intercontinental capabilities and longer-range capabilities 
where we are going to see salvo attacks, which are going to 
place far greater premiums on our ability to do battle 
management and command and control to orchestrate our defenses.
    Mrs. Hartzler. Okay. Thank you very much.
    Mr. Bartlett. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    And I wanted to thank all of our witnesses today.
    I am from Guam, representing Guam, and I am following up on 
Representative Hanabusa's questions. And they are for you, Dr. 
O'Hanlon.
    In your remarks, you mentioned the dangers of drawing back 
our range of influence and power around the world. You phrased 
it as ``coming home from the world.''
    Now, can you highlight some areas in the Pacific--and I 
will throw in Asia, as well--theater where we could be more 
cost-effective in upholding our treaties and our alliances 
while maintaining our ability to project power?
    And, along with that, do you think we presently have enough 
of a presence in the Pacific theater to prepare us for what our 
long-range national interests will likely be in the region?
    Dr. O'Hanlon. Thanks, Congresswoman.
    A couple of things. On the latter question, I think the 
numbers are basically pretty good, but I think the capabilities 
have to keep getting better. And one area we have to worry 
about--and, again, Jim and others have been alluding to this 
throughout the hearing and in their writings--is the threat to 
airfields from an increasingly precise capability with the 
Chinese missile force, whether ballistic or cruise.
    And that is not just confined to China; that is a trend in 
technology. So I think we have to worry about more hardened 
shelters for airplanes. We have to worry about buying aircraft 
like the F-35. Even though I would limit the buy, I would make 
sure we do purchase a number that are capable of operating off 
of degraded or short airfields. And I would make sure we have 
plenty of equipment to repair airfields as they are struck. And 
there are a lot of other things that need to be done, as well.
    To your first question, capabilities where we could be more 
efficient, I think one area is putting more attack submarines 
homeported in Guam. I think to the extent the good people of 
Guam are willing to host even more attack submarines--and I 
realize Guam is already getting a little full with a lot of 
military capability, but I think it would be, actually, a very 
good tradeoff, because if one goes through the mathematics on 
that--and CBO [Congressional Budget Office] has done some very 
nice work here--you see that being that close to some of the 
theaters that we want to watch--because, after all, attack 
submarines are often used in the surveillance mode--but that is 
actually hugely beneficial if you are carrying it out from a 
forward location like Guam rather than having to waste all the 
time going back and forth to the good States of California and 
the like back on the continental 48.
    Ms. Bordallo. Well, I don't know what you meant when you 
said Guam is getting full, but I do know we are not going to 
sink.
    I have one other question that I would like you to answer. 
Currently, one of the big parts of the budget is the military 
buildup ongoing in Guam. How do you feel about cutting anything 
from that?
    Dr. O'Hanlon. I support the buildup on Guam because I think 
it generally is playing to our strengths of focusing on a key 
theater that is important, taking advantage of American 
territory that is more or less in a forward-deployed location 
but also a little bit removed from the immediate environs where 
China's short-term capabilities are becoming more threatening. 
And it also spreads, sort of, our capabilities around in a 
wider array of places, which reduces our vulnerability to a 
surprise attack, which is an area I think we have to worry more 
and more about in general.
    And so, for all these reasons, I support expansion of 
airfields, also hardening of airfields, improvement of aircraft 
shelters, putting things underground like fuel capability so 
they are safer from attack, using airplanes that are capable of 
using degraded runways, putting more attack submarines on Guam, 
and, if the Japanese, if our good friends in Tokyo can work 
this out, actually completing the deal on moving some of the 
Marines to Okinawa, as well.
    Ms. Bordallo. Good.
    Does anybody else have any comments on that buildup?
    Mr. Donnelly. Very briefly, I would support it. I am 
worried about putting all our eggs in few baskets. In addition 
to creating----
    Ms. Bordallo. Putting--what did you say?
    Mr. Donnelly. Putting all our eggs in relatively few 
baskets in the theater, you know, just to be frank.
    Ms. Bordallo. But Guam is ours, too.
    Mr. Donnelly. Yes, but it will be a target. It is a target. 
And it is easier for the Chinese to make the missile go farther 
than it is for us.
    I think we need to consider a more dispersed posture, a 
kind of week-two or second-day posture, throughout the region, 
for which Guam would be critical but not exactly in the same 
way that it is being considered now. I would like to be in more 
places.
    Ms. Bordallo. Anybody else?
    Mr. Boot. Well, I think Tom makes an important point, which 
is that----
    Ms. Bordallo. I just have 28 seconds left.
    Mr. Boot. Okay. Well, an important point, which is that we 
talk about duplication and streamlining the Department of 
Defense, and there may be budgetary reasons for doing that, but 
in terms of strategic reasons, you actually want to have some 
duplication, you want to have redundancy, so that if, God 
forbid, the balloon goes up and war breaks out and you lose 
certain assets, you have others in place. And so what may seem 
wasteful in peacetime is actually absolutely necessary when the 
hostilities actually start.
    Ms. Bordallo. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Bartlett. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony. I apologize that I 
had come in later. We had Director Clapper and Director 
Petraeus before us in the Intelligence Committee, and I had to 
attend that meeting first. But, in any event, I want to thank 
you for what you have had to say today. And some of the things 
I may ask may already be covered.
    But I have noticed that, obviously, since the--over the 
last 10 years, post-9/11, in addition to our greater reliance 
on Special Operations Forces, we also have a greater reliance 
and dependence now on cybersecurity, which is an area that I 
have spent a great deal of time on.
    So my question is, are we properly resourced in that area? 
And, as we go forward and we look over the next decade, what 
areas in cyber do we need to be focused more on? Where should 
we be devoting our resources in that area so we are properly 
resourced?
    I give President Obama high marks on the way he is handling 
cyber. I am not satisfied that we are where we need to be on 
the broader picture. I think there need to be greater 
authorities in the role of the cybersecurity coordinator--that 
should be a director's position--and strengths in that area.
    But where should we be most focused in cyber?
    Mr. Thomas. Last year, the United Kingdom conducted an 
exhaustive review of its defense programs, and it made 
substantial cuts across the board. What I think is instructive, 
however, is that there was really one area where they actually 
were increasing spending, and that was in the area of cyber, 
both in terms of cybersecurity as well as thinking about how do 
you use non-kinetic systems as an adjunct or as a complement to 
kinetic forms of warfare as we look ahead.
    One of the real challenges is how we think about this 
problem. In our war games over the past couple years, everyone 
emphasizes cyber as a growth area where you want to make 
increased investments. The challenge is actually determining 
where and what sorts of investments you want to make. Do you 
focus more on a strategic capability, both in terms of a 
strategic defense capability for a critical infrastructure in 
the United States or potentially as a strategic offensive 
system weapon that you could use against your adversaries? Do 
you think of it as an adjunct or as a means of suppressing 
enemy air defenses and going after other networks in the 
future? All of these things are going to have to be thought 
through.
    I would say that cyber will be incredibly attractive, 
especially as an offensive weapon, for all of the great powers 
and non-state actors as well. And we would only not make 
investments in this area at our own peril.
    I think the second point that is really critical to keep in 
mind is the intricate relationship between offensive and 
defensive cyber warfare. It will be very difficult to be good 
defensively if we do not think offensively as well, and vice 
versa.
    Mr. Boot. I would just reiterate a point that I made in 
reply to the question that Mrs. Hartzler had earlier about 
missile defense and that--totally legitimate and appropriate to 
worry about ballistic missiles, totally legitimate and 
appropriate to worry about cyber attack. These are all areas 
where, unfortunately, our capabilities are deficient right now 
and we need more spending. But we can't just--it is hard, as we 
have been discussing, to see other areas of the budget, of the 
defense budget, where we can painlessly cut and give up other 
capabilities so that we can enhance these, and it is a zero-sum 
game right now. And it is hard to make the case for ignoring 
the looming threat on cyber or ballistic or other looming 
threats.
    Mr. Langevin. Yeah. I would also point out to you that, 
obviously, under President Obama's administration, we have 
created the new Cyber Command, headed by General Alexander, 
which I think is an important coordination model for bringing 
the best of all the Services together and properly using all 
the talents that we have among the various Services, again, 
bringing them into a more coordinated model.
    Let me, as time is expiring--you know, typically--and this 
does relate to cyber, I think, directly but more broadly, 
additionally. Typically, when faced with budgetary pressures or 
downward trends in top-line spending, research and development 
programs are often among the first areas to experience 
reductions.
    From your perspective, what impacts, both short- and long-
term, would a reduction in the current RDT&E [Research, 
Development, Test, and Evaluation] accounts, particularly basic 
research, have on military capability?
    Mr. Donnelly. Very quickly, I would just say that I would 
adjudge that our problem over the past couple of decades has 
been that we have not been able to actually produce what we 
have invented, and the distinction between what is R&D and 
procurement is a very fine line. We need to be able to produce 
things in quantities so that they are militarily important.
    And so, what I would be concerned about is the balance both 
of basic science and defense research and development and the 
ability to produce large numbers of systems and capabilities in 
ways that will be important in the real world.
    Mr. Langevin. Okay.
    I thank the panel. I appreciate your time today and your 
patience and your thoughtful answers to our questions.
    Thank you, Mr. Chairman. I yield back.
    Mr. Bartlett. Thank you, Mr. Langevin.
    And, members of the panel, thank you very much for your 
testimony.
    The committee stands in adjournment.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                           September 13, 2011

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 13, 2011

=======================================================================

      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

              The Future of National Defense and the U.S.

            Military Ten Years After 9/11: Perspectives from

              Former Chairmen of the Joint Chiefs of Staff

                           September 8, 2011

    Good morning. The House Armed Services Committee meets this 
morning to receive testimony on The Future of National Defense 
and the U.S. Military Ten Years After 9/11: Perspectives from 
Outside Experts.
    As our Nation marked the ten-year anniversary of the 
attacks on our Nation this past Sunday, we remember and 
commemorate the lives lost on that day. We also honor the 
sacrifices made every day since then by our military and their 
families, as our Armed Forces continue to fight for our 
Nation's safety. This hearing is the second in our series of 
hearings to evaluate lessons learned since 9/11 and to apply 
those lessons to decisions we will soon be making about the 
future of our force. Last Thursday, we heard from former 
Chairmen and a Vice-Chairman of the Joint Chiefs of Staff. 
Today, we will hear from outside experts, representing several 
well-known and highly respected organizations, to whom our 
Committee regularly turns for accurate and reliable research 
and analysis. While we will continue to solicit the expertise 
of former and current senior military and civilian leaders 
within the Department of Defense, it is important to gain 
perspective from professionals such as these who make their 
living conducting the type of forward-looking, strategic 
assessments we seek.
    I remain concerned that our Nation is slipping back into 
the false confidence of a September 10th mindset, believing our 
Nation to be secure because the homeland has not been 
successfully attacked--believing that we can maintain a solid 
defense that is driven by budget choices, not strategic ones. 
As members of the Armed Services Committee, we must avoid the 
cart-before-the-horse cliche. First we must decide what do we 
want our military to do, and only then evaluate savings within 
the Department.
    To date, that hasn't happened--over half a trillion dollars 
has been cut from DOD already. Nevertheless, if the Joint 
Select Committee does not succeed in developing and passing a 
cohesive deficit reduction plan, an additional half a trillion 
dollars could be cut from our military automatically. On top of 
that looming concern, it remains to be seen whether or not 
additional cuts may be proposed by the Administration, even if 
the Super Committee is successful.
    As Chairman of the Armed Services Committee, I have two 
principal concerns that stem from recent military atrophy. The 
first is a security issue. In a networked and globalized world, 
the Atlantic and Pacific Oceans are no longer adequate to keep 
America safe. September 11th taught us that. The second is an 
economic concern. While it is true that our military power is 
derived from our economic power, we must recognize that this 
relationship is symbiotic. Cuts to our Nation's defense, either 
by eliminating programs or laying off soldiers, comes with an 
economic cost.
    The U.S. military is the modern era's greatest champion of 
life, liberty, and the pursuit of happiness. It is time we 
focus our fiscal restraint on the driver of the debt, instead 
of the protector of our prosperity.
    With that in mind, I look forward to a frank discussion.
    Now please let me welcome our witnesses this morning. We 
have:

        <bullet> LMr. Jim Thomas, Vice President and Director 
        of Studies at the Center for Strategic and Budgetary 
        Assessments;

        <bullet> LDr. Michael E. O'Hanlon, Director of Research 
        and Senior Fellow at the Brookings Institution;

        <bullet> LMr. Thomas Donnelly, Resident Fellow and 
        Director, Center for Defense Studies at the American 
        Enterprise Institute; and

        <bullet> LMr. Max Boot, the Jeane J. Kirkpatrick Senior 
        Fellow for National Security Studies at the Council on 
        Foreign Relations.

    Thank you gentlemen for being here today and we look 
forward to your testimony.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

              The Future of National Defense and the U.S.

            Military Ten Years After 9/11: Perspectives from

              Former Chairmen of the Joint Chiefs of Staff

                           September 8, 2011

    I would like to thank the witnesses for appearing here 
today. As we head into this period of budget uncertainty, we 
appreciate your willingness to help us think through our 
options.
    Our Nation is faced with a long-term, systemic budget 
dilemma--revenues and expenditures are simply misaligned. We 
don't collect enough revenue to cover our expenditures. Going 
forward, it is my belief that we are going to have to fix this 
problem from both ends--spending will have to come down, and 
we're going to have to fix the revenue problem.
    However, what we need you to help us think through today 
are the implications of a reduction in the defense budget. 
Defense spending makes up about 20 percent of all Federal 
spending and about half of all nonentitlement. Since 9/11, 
defense spending has risen, in real terms, somewhere over 40 
percent without counting the costs of the wars in Iraq and 
Afghanistan. Like many, if not most, of our members here, I 
share the view that large, immediate cuts to the defense budget 
would have substantially negative impacts to the ability of the 
U.S. military to carry out those missions we assign them, and 
this is why I opposed the recent agreement to raise the debt 
ceiling. But, I do believe that we can rationally evaluate our 
national security strategy, our defense expenditures, and the 
current set of missions we ask the military to undertake and 
come up with a strategy that requires less funding. We can, I 
believe, spend smarter and not just more.
    It is this belief that causes me to congratulate the 
Administration for undertaking a zero-based review of our 
defense strategy. Undertaking a strategic review at this moment 
is a rational and responsible choice, and I hope Congress will 
consider its results seriously as we go forward. We on this 
committee like to say that strategy should not be driven by 
arbitrary budget numbers, but by the same token not considering 
the available resources when developing a strategy is 
irresponsible and leads inevitably to asking our military to do 
too much with too little.
    I have two hopes for this hearing today and for this entire 
series of hearings. First, I hope the witnesses here today and 
at future hearings can help us think through our national 
security strategy and potential changes. How can we put 
together a sustainable national defense strategy? If our 
witnesses were asked, what would they tell those undertaking 
the comprehensive review? What can we as a country, we as a 
Congress, and those who run the Department of Defense do 
smarter?
    Secondly, it is my hope that these hearings will help 
illustrate to my colleagues and the Nation at large that we 
have to make some serious choices here. Our budget problems 
must be looked at in a comprehensive manner. If we are serious 
about not cutting large amounts of funding from the defense 
budget, something else has to give. I share with my colleagues 
on the other side of the aisle the concern that large, 
immediate, across-the-board cuts to the defense budget may well 
do damage to our national security. But I hope that on their 
part, they will come to share the reality that we can't just 
wish our problems away, and that if we want to avoid large cuts 
to the defense budget, we're going to have to address our 
budget problems comprehensively, through smarter defense 
spending, reformed entitlements, and yes, new sources of 
revenue.
    Thank you again, Mr. Chairman, for holding this hearing.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           September 13, 2011

=======================================================================

      
             RESPONSE TO QUESTION SUBMITTED BY MR. BARTLETT

    Mr. Donnelly. [The information was not available at the time of 
printing.] [See page 20.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. ANDREWS
    Mr. Boot. [The information was not available at the time of 
printing.] [See page 22.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
